<html>
<title> - 45th ANNIVERSARY OF THE NATIVE AMERICAN PROGRAMS ACT AND THE ESTABLISHMENT OF THE ADMINISTRATION FOR NATIVE AMERICANS</title>
<body><pre>[Senate Hearing 116-14]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-14

     45th ANNIVERSARY OF THE NATIVE AMERICAN PROGRAMS ACT AND THE 
            ESTABLISHMENT OF THE ADMINISTRATION FOR NATIVE 
                               AMERICANS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

                                   

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-242 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>                        
                      
                      
                      
                      
                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2019................................     1
Statement of Senator Cortez Masto................................    38
Statement of Senator Hoeven......................................     1
Statement of Senator Tester......................................    36
Statement of Senator Udall.......................................     2

                               Witnesses

Hovland, Hon. Jeannie, Commissioner, Administration for Native 
  Americans, Administration for Children and Families, U.S. 
  Department of Health and Human Services........................     3
    Prepared statement...........................................     5
James, Hon. Joe, Chairman, Yurok Tribe...........................    14
    Prepared statement...........................................    16
Socobasin, Hon. Joseph M., Councilmember/Former Chief, 
  Passamaquoddy Tribe............................................     8
    Prepared statement...........................................     9
Vallo, Hon. Brian, Governor, Pueblo of Acoma.....................    10
    Prepared statement...........................................    11

                                Appendix

Crabbe, Kamana`opono M., Ph.D,, Ka Pouhana/CEO, Office of 
  Hawaiian Affairs, prepared statement...........................    45
Response to written questions submitted by Hon. Tom Udall to Hon. 
  Jeannie Hovland................................................    46

 
                    45th ANNIVERSARY OF THE NATIVE 
                     AMERICAN PROGRAMS ACT AND THE 
        ESTABLISHMENT OF THE ADMINISTRATION FOR NATIVE AMERICANS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call the hearing to 
order.
    Today the Committee will hold its first oversight hearing 
of the 116th Congress. The hearing is on the 45th anniversary 
of the Native American Programs Act and the establishment of 
the Administration for Native Americans.
    In 1964, in his State of the Union address, President 
Lyndon B. Johnson declared a war on poverty in the United 
States. The President's direction led to the passage of the 
Economic Opportunity Act of 1964. This Act was later amended to 
include the Native American Programs Act of 1974, establishing 
the Administration for Native Americans.
    This year, we will recognize the 45th anniversary of the 
Native American Programs Act of 1974, which was signed into law 
on January 4, 1975. The purpose of the Act is to promote 
economic self-sufficiency for American Indians, Alaska Natives, 
Native Hawaiians and other Native populations throughout the 
Pacific region. The Native American Programs Act established 
the Administrative for Native Americans, ANA, within the 
Department of Health and Human Services. This agency provides 
three types of grants to enhance the economic and cultural 
well-being of these populations.
    According to the ANA report to Congress, these grants have 
assisted Native communities in overcoming challenges in 
economic development and cultural loss. Of the grantees who 
were evaluated in the fiscal year 2015 report, 58 new or 
sustained partnerships were produced for social and economic 
development strategies.
    In economic development projects, 12,507 voucher hours were 
provided during the social and economic development strategies, 
social development projects. Two hundred fifty-seven Native 
youth were involved in the implementation of environmental 
regulatory enhancement projects. Two hundred twenty-nine Native 
language instructors received training.
    The Native American Programs Act also created the 
commissioner position to oversee the ANA and co-chair of the 
Intra-Departmental Council on Native American Affairs within 
the Department of Health and Human Services. The council is co-
chaired by the commissioner with the Indian Health Services 
Director.
    The Senate confirmed Ms. Jeannie Hovland to serve as the 
seventh commissioner on June 21st, 2018. We will hear from her 
and other witnesses on how the process has served Native 
American communities. They put a lot of acronyms in my remarks. 
I should have spent more time last night going through all 
those acronyms. They are very good at them. Anyway, to 
understand how these programs have served Native communities 
and what further progress or improvements should be made.
    Before we turn to the witnesses, I would like to ask Vice 
Chairman Udall for his opening statement. Vice Chairman Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven. I appreciate 
your scheduling today's hearing to discuss the Native American 
Programs Act.
    I would first like to welcome Acoma Pueblo's newly-elected 
governor, Brian Vallo. Great to have you here today, Governor. 
As the former director of the Indian Arts and Research Center, 
Governor Vallo knows the importance of cultural preservation 
and local capacity building. He is uniquely positioned to 
further advance the Acoma Pueblo's plan to revitalize the Keres 
language. Governor, thank you so much for being here today to 
discuss the Pueblos' experience with the ANA Language Grants.
    The NAPA plays an important role in supporting community-
driven projects designed to grow local economies, strengthen 
Native languages and bolster the environmental protection 
efforts of tribal governments. Since its enactment in 1974, 
NAPA has sought to promote self-sufficiency and cultural 
preservation for Native communities. The Administration for 
Native Americans at HHS fulfills this mission by providing 
grants for community-based projects as well as training and 
technical assistance.
    ANA grants are unique in that they empower Native 
communities to develop projects that meet the specific needs of 
their community. Other Federal grants take a top-down approach 
in which Native communities must tailor their projects to meet 
nationwide funding criteria. This Committee has played a 
central role in pushing forward important improvements and 
expansions to the original Act.
    In 1990, our colleague, Senator McCain, led efforts to pass 
the Indian Environmental Regulatory Enhancement Act, which 
authorized ANA grants to improve the capability of tribal 
governments to regulate environmental quality. At that time, my 
uncle Mo Udall was the chairman of the House Committee on 
Interior and Insular Affairs. Mo worked with Senator McCain to 
ensure the bill passed the House, which it ultimately did 
overwhelmingly.
    This was a time where bipartisan legislation addressing the 
environmental needs of tribes and our Nation wasn't all that 
uncommon. I hope we can continue to build on that legacy and 
the tradition of bipartisan cooperation that is so central to 
this Committee, to carry those efforts forward.
    More recently, in 2006, I worked on a bipartisan basis with 
the entire New Mexico house delegation to further expand NAPA's 
grant work with the Esther Martinez Native Languages Act. 
Native languages remain a priority for me. In my home State of 
New Mexico, 23 tribes speak 7 major Native languages that are 
not only crucial to the communities that speak them but also 
are important to our State's multi-faceted identity.
    It is fitting for today's hearing and my work on Native 
languages that the Committee's most recent efforts to refine 
NAPA happened just this month, when it unanimously supported my 
bill, the Esther Martinez Native Language Programs 
Reauthorization Act. I look forward to moving the Esther 
Martinez Reauthorization through the full Senate, and I hope 
today's hearing will highlight how tribes have leveraged ANA 
programs to meet project goals and improve overall community 
health and wellness.
    I want to especially thank the Honorable Jeannie Hovland 
for getting in your testimony. You have made it well before the 
48 hours, and we really appreciate that, and thank the chairman 
and thank the panel for joining us today.
    The Chairman. Thank you, Mr. Vice Chairman.
    Do we have any other opening statements? Okay, if not, we 
will proceed with our witnesses. Thank you for being here. We 
will start with Jeannie Hovland, Commissioner, Administration 
for Native Americans, Administration for Children and Families, 
Department of Health and Human Services. Then we will proceed 
to the Honorable Joseph Socobasin--thanks for being here --
council member and former Chief Passamaquoddy Tribe, Indian 
Township. The Honorable Brian Vallo, Governor, Pueblo of Acoma, 
Pueblo, New Mexico. Thank you for being here.
    And the Honorable Joe James, did I get that right?
    [Laughter.]
    The Chairman. I am teasing a little bit. Chairman of the 
Yurok Tribe, Klamath, California. Thanks to all of you for 
being here. We appreciate it very much, and Commissioner, 
please proceed.

STATEMENT OF HON. JEANNIE HOVLAND, COMMISSIONER, ADMINISTRATION 
                     FOR NATIVE AMERICANS, 
        ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Hovland. Thank you. Chairman Hoeven, Vice Chairman 
Udall, and members of this Committee, my name is Jeannie 
Hovland and I am the Commissioner of the Administration for 
Native Americans. It is an honor to speak to you today about 
ANA's efforts to promote social and economic development in 
Native American communities.
    Forty-five years ago, Congress passed the Native American 
Programs Act, which established the Administration for Native 
Americans. ANA statute defines Native Americans broadly, not 
just to include federally-recognized tribes, but also to 
include State-recognized tribes, Native American nonprofits, 
and Native Hawaiian and Native Pacific Islander communities. 
ANA's mission and underlying goal is to improve self-
sufficiency and promote cultural preservation for Native 
Americans. We provide competitive discretionary grants, 
training, and technical assistance to grantees.
    Our grant funding opportunities are very popular and highly 
competitive within Native American communities. In fiscal year 
2018, ANA received 266 applications and made 63 new awards in 
our six project areas. Our current grant portfolio includes 187 
projects across the Unites States and territories. Among those 
projects are programs that target environmental regulatory 
enhancement, asset building, social and economic development 
strategies, language preservation and maintenance efforts, and 
youth leadership education and development initiatives.
    HHS believes that language revitalization is essential for 
continuing Native American culture and strengthening self-
determination. For just over a decade, we have funded a wide 
variety of three-year Esther Martinez Initiative projects. Of 
particular note, the Keres Children's Learning Center on the 
Cochiti Pueblo in New Mexico has established the Indigenous 
Montessori Institute, which brings together the Montessori 
method and indigenous community values, resources, and systems 
to redefine educational systems. This project's goal is to 
strengthen the community's daily use of Keres and stimulate 
cross-generational Keres fluency.
    While there have been modifications to the NAPA statute 
over the years, the core grant program remains and is 
implemented through the Social and Economic Development 
Strategies, or SEDS program. SEDS projects represent two-thirds 
of our grant portfolio.
    I would like to share a variety of SEDS project examples. 
In Arizona, the Navajo Nation is one of the largest food 
deserts in the United States, with only 13 grocery stores on a 
land area the size of the South Carolina. ANA's grantee, the 
Tolani Lake Enterprises, Inc., uses grant funding to empower 
and educate community members to revitalize their traditional 
food systems and improve food security. At the end of their 
first year, they exceeded their workshop participation goal 
with 812 community members attending. They have leveraged 
partnerships with neighboring farms, community member's 
gardens, and the Dine College to enhance the funds provided by 
ANA.
    In Alaska, the Native Village of Ekwok determined that its 
most pressing issue was collection of its solid waste and 
prevention of illegal trash dumpsites. Using ANA funding, the 
village has been able to provide Ekwok residents with garbage 
collection services and eliminate all illegal dumpsites.
    Another area that our grantees focus on is workforce 
development. There is a strong desire in our Native communities 
to ``grow our own'' professionals to help raise the 
socioeconomic status of the community and solve staffing 
shortages and employee retention problems.
    For example, Aaniiih Nakoda College in Harlem, Montana, 
focuses on education in the health care professions. The 
college provides a holistic, culturally-based approach to 
education. Through an ANA grant, 33 participants received their 
nurse's aide certificate and one received a registered nursing 
degree. Currently, 28 participants work in the health care 
field, with more students graduating in May.
    To know how effective ANA projects are, each year ANA 
visits two-thirds of the projects that are nearing completion 
in order to capture the outcomes achieved. In fiscal year 2016, 
ANA looked back on five years of impact visit reports to 
conduct a data review of 295 grantees funded between fiscal 
years 2011 and 2015. Through our review, we found that SEDS-
visited projects generated over $1.1 million in revenue; 129 
new businesses were created; over 2,000 Native Americans were 
employed; and more than 55,000 youth and 17,000 elders were 
involved in SEDS activities.
    Since ANA funding only augments a small portion of Native 
communities' needed resources, I have made it a priority to 
work with Federal counterparts and nongovernment partners to 
help projects remain sustainable. One of my other high 
priorities is serving vulnerable populations such as elders, 
youth, veterans, and potential victims or survivors of human 
trafficking.
    Forty-five years after Congress passed NAPA, we have 
experienced great success in helping Native Americans achieve 
healthier outcomes with higher standards of living. I look 
forward to continuing to work with Congress to further advance 
these goals.
    I would be happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Ms. Hovland follows:]

       Prepared Statement of Hon. Jeannie Hovland, Commissioner, 
 Administration for Native Americans, Administration for Children and 
                            Families, U.S. 
                Department of Health and Human Services
Introduction
    Chairman Hoeven, Vice Chairman Udall, and esteemed members of the 
Senate Committee on Indian Affairs, my name is Jeannie Hovland and I am 
the Commissioner of the Administration for Native Americans (ANA). ANA 
is an office within the Administration for Children and Families (ACF) 
at the Department of Health and Human Services (HHS). It is an honor to 
address this Committee again, this time with a focus on ANA's efforts 
to promote social and economic development in Native American 
communities. I appreciate your interest in ANA and the long-standing 
support of this Committee.
    Forty-five years ago, Congress passed the Native American Programs 
Act of 1974 (NAPA), which established the Administration for Native 
Americans. ANA is unusual among many federal offices because our 
statute defines Native Americans broadly, not just to include federally 
recognized tribes, but also to include state recognized tribes, Native 
American nonprofits, and Native Hawaiian and Native Pacific Islander 
communities.
NAPA Authorized Grant Programs
    The mission of HHS is to enhance and protect the health and well-
being of all Americans. Within those broad parameters, ANA's mission 
and underlying goal is to improve self-sufficiency and promote cultural 
preservation for Native Americans. We provide competitive discretionary 
grants, training, and technical assistance to tribes, tribal 
organizations, non-profits, and Native American communities, including 
American Indians, Alaska Natives, Native Hawaiians, and Native Pacific 
Islanders. We support three program areas authorized under NAPA: Native 
American Languages, Environmental Regulatory Enhancement, and Social 
and Economic Development Strategies (SEDS).
    Our grant funding opportunities are very popular and highly 
competitive within Native American communities. In fiscal year (FY) 
2018, ANA received 266 applications and made 63 new awards in our six 
project areas. Our current grant portfolio includes 187 projects across 
the Unites States and the Pacific territories. Among those 187 projects 
are programs that target environmental regulatory enhancement projects, 
asset building, social and economic development strategies, language 
preservation and maintenance efforts, and youth leadership education 
and development initiatives.
Language
    In my August testimony, I spoke to the importance of language 
preservation. HHS believes that language revitalization is essential 
for continuing Native American culture and strengthening self-
determination. Native American values and traditions are embedded in 
Native languages. These values and traditions are a source of 
resilience and cultural cohesion that connects us with past and future 
generations.
    The Esther Martinez Native American Languages Preservation Act of 
2006 amended NAPA to specifically target grants for language immersion 
and restoration programs. These two methods show promise in creating 
fluent speakers who, in turn, continue to revitalize, preserve, and 
maintain native languages.
    For just over a decade, we have funded a wide variety of three-year 
Esther Martinez Initiative (EMI) projects. We continually refine our 
application and project reporting processes to elicit stronger 
applications and better ways to document grantees' progress in meeting 
their project objectives.
    Of particular note, the Keres Children's Learning Center on the 
Cochiti Pueblo, New Mexico has established the Indigenous Montessori 
Institute, which brings together the Montessori Method and Indigenous 
community values, resources, and systems to redefine educational 
systems. This project's goal is to strengthen the community's daily use 
of Keres across historical, traditional, contemporary, household, and 
formal contexts and stimulate cross-generational Keres fluency.
    As I have witnessed first-hand in my travels, successful efforts to 
advance the social and economic conditions of Native Americans are 
grounded in a unifying sense of culture and belonging.
Social and Economic Development Strategies
    While there have been modifications to the NAPA statute over the 
years, the core grant program remains and is implemented through the 
SEDS program. SEDS also represents the core mission of ACF, which is to 
promote the economic and social well-being of children, families, 
individuals, and communities. SEDS projects represent two-thirds of our 
grant portfolio. I would like to share a variety of project examples 
that are funded within this broad category and are a remarkable 
testament to the program's support of Native communities' self-
identified needs and initiatives.
    In Arizona, the Navajo Nation is one of the largest food deserts 
\1\ in the United States with only 13 grocery stores on a land area the 
size of the State of South Carolina. ANA's grantee, the Tolani Lake 
Enterprises, Inc., uses grant funding to empower and educate community 
members to revitalize their traditional food systems, improve food 
security, and create a community-based program that could be replicated 
by other tribes. At the end of their first year, they exceeded their 
workshop participation goal with 812 community members attending. Also, 
the project has twenty-four youth working with Navajo elders to 
translate the program's curriculum into their Navajo language. They 
have leveraged partnerships with neighboring farms, community member's 
gardens, and the Dine College to enhance the funds provided by ANA.
---------------------------------------------------------------------------
    \1\ According to HHS' Centers for Disease Control and Prevention 
(CDC), food deserts are areas that lack access to affordable fruits, 
vegetables, whole grains, low-fat milk, and other foods that make up a 
full and healthy diet. Many Americans living in rural, minority, or 
low-income areas are subjected to food deserts and may be unable to 
access affordable, healthy foods, leaving their diets lacking essential 
nutrients. The CDC definition can be found here: https://www.cdc.gov/
healthcommunication/toolstemplates/entertainmented/tips/
FoodDesert.html.
---------------------------------------------------------------------------
    The Mashpee Wampanoag Tribe in Massachusetts recently completed a 
project that demonstrates how tribes are able to use ANA funding to 
build their legal infrastructure. Specifically, they incorporated a 
traditional peacemaking dispute-resolution process into their existing 
court system. Through their SEDS grant, 18 peacemakers were trained, 
and the Tribal Council added peacemaking to the Tribe's human resources 
policies to provide an alternative to automatic employee termination. 
Peacemaking was also added to the juvenile codes as an alternative to 
court proceedings. Peacemakers have remarked that it was empowering to 
develop and implement this project, as it allowed them to reincorporate 
traditional adjudication methods into tribal law. As a result, the 
Mashpee Wampanoag have expanded opportunities for conflict resolution 
that are firmly rooted in their cultural values.
    Lack of physical infrastructure continues to be a challenge in many 
tribal communities. Because of the flexibility of SEDS, ANA is able to 
fund projects for planning, designing, and securing staff and equipment 
for projects that address infrastructure needs. One such funded project 
is the Pathway to Enhanced and Secured Information Technology (IT)--
Fiber Optic Infrastructure for the Thlopthlocco Tribal Town in 
Oklahoma. This project successfully installed a communications tower 
and fiber backbone infrastructure with connections to two tribal 
buildings, and increased Internet speeds for the community. The project 
saves the tribe at least $1,500 per month on Internet service 
provider's fees. Ultimately, Thlopthlocco Tribal Town will implement a 
fully equipped and operational IT infrastructure to ensure the 
efficient administration of the tribal government, which is made up of 
15 tribal programs staffed by over 100 employees and serves 957 tribal 
members.
    In Alaska, the Native Village of Ekwok determined that its most 
pressing issue was collection of its solid waste and prevention of 
illegal trash dumpsites. Using ANA funding, the Native Village has been 
able to provide 35 residents in Ekwok with garbage collection services 
and 31 households are paying garbage collection fees. The number of 
illegal dumpsites is now zero. In addition, two Village ordinances were 
developed to regulate and enforce solid waste management.
    Another area that our grantees focus on is workforce development. 
Not only does economic development promote tribal empowerment and 
strengthen tribal self-governance, there is a strong desire in native 
communities to ``grow our own'' professionals to help raise the socio-
economic status of the community and solve staffing shortages and 
employee retention problems. This approach also builds continuity and 
infuses cultural awareness in the services provided to community 
members.
    For example, Aaniiih Nakoda College in Harlem, Montana, focuses on 
education in the health care professions. The college provides a 
holistic, culturally based approach to education, which distinguishes 
it from other programs and directly contributes to their students' 
success. They uphold the highest standards of quality and equity, while 
providing programs at an affordable cost. Through an ANA grant, 33 
participants received their nurse's aide certificate and one received a 
registered nursing degree. Currently, 28 participants work in the 
health-care field, with more students graduating in May.
    The Waianae Coast of Hawai'i has the highest rates of teacher 
turnover, new teacher and non-resident placements, and unqualified 
teachers in the State of Hawaii. These are factors that negatively 
affect student learning and academic development in the state. To 
address these issues, the Institute of Native Pacific Education and 
Culture plans to utilize their ANA funding to pilot and evaluate a 
``grow our own'' teacher model. This program will recruit, educate, 
place, and retain 100 Native Hawaiian community members who are seeking 
a teaching degree focused on early childhood education or kindergarten 
through 12th grade, and are dedicated to teaching and contributing to 
the educational and economic growth of the Native Hawaiian population 
on the Waianae Coast.
Grant Program Outcomes
    To know how effective ANA projects are, each year ANA visits two-
thirds of the projects that are nearing completion in order to capture 
the outcomes achieved. In FY 2016, ANA looked back on five years of 
impact visit reports to conduct a data review of 295 grantees funded 
between FY 2011 and 2015. During this period, 122 federally recognized 
tribes were awarded at least one ANA grant. One hundred and two Native 
American organizations, Native nonprofits, and Pacific Islander groups 
and 25 schools and education centers also received funding.
    Through our review, we found that:

  <bullet> SEDS-visited projects generated $1,183,480 in revenue;

  <bullet> 129 new businesses were created;

  <bullet> 2,326 Native Americans were employed;

  <bullet> 89 percent of all revenue generated from all project types 
        came from SEDS projects;

  <bullet> 85 percent of all new businesses created by all project 
        types were from SEDS projects;

  <bullet> 69 percent of the SEDS projects focused on social topics, 
        with cultural preservation activities being the most popular 
        subcategory;

  <bullet> 31 percent of SEDS projects focused on economic development; 
        and

  <bullet> 54,189 youth and 17,169 elders were involved in SEDS 
        activities.

    We take pride in the fact that so many projects reach our elders 
and youth. These two populations are held in such high esteem in Native 
traditional ways, and it is through intergenerational connections that 
Native cultures, traditions, and languages can continue to be passed 
on.
    Vital to the positive outcome and success of ANA projects is the 
training and technical assistance offered. ANA has four regional 
training and technical assistance (TA) centers offering, at no cost, 
project and planning development training, pre-application training, 
and post award training. The centers can also review applications that 
are 75 percent complete and offer guidance to help improve the 
proposal. Trainings are provided in-person and virtually throughout our 
service area. In order to help increase the chance for success, 
technical assistance remains available throughout the life of the 
grant.
    I am committed to reaching out to communities that have never 
received ANA funding, or have not received ANA funding in many years. 
Our TA centers are conducting extensive outreach and finding innovative 
ways to help communities that cannot afford to travel to our training 
sessions. ANA has been offering more trainings in rural locations, 
including through virtual, web-enabled settings. This helps to level 
the playing field for lower-capacity applicants.
    Since ANA funding only augments a small portion of Native 
communities' needed resources, I have been working with my federal 
counterparts and nongovernment partners to help projects remain 
sustainable after their grant sunsets.
    My highest priorities for collaboration are in economic development 
and serving vulnerable populations such as elders, youth, veterans, and 
potential victims or survivors of human trafficking. I have met with 
the Department of the Interior, the Small Business Administration, the 
Department of Agriculture's Rural Development, the Federal Reserve Bank 
of San Francisco, and the Center for Indian Country Development at the 
Federal Reserve Bank of Minneapolis. I have met several times with the 
Department of Veterans Affairs and with Native veterans groups in New 
Mexico and South Dakota to identify needs and opportunities to partner. 
I am working closely with HHS' Administration for Community Living. 
Finally, I am working with ACF's Office on Trafficking in Persons to 
increase their outreach to Native communities.
Conclusion
    As we look to the future of NAPA, this Administration is eager to 
partner with this Committee and Congress as a whole on reauthorization. 
With the important work being done by our Native language preservation 
program, we are seeking an opportunity to transmit grant products to 
the National Museum of the American Indian in order to increase the 
practical availability of products such as curricula, training 
materials, and dictionaries to other Native communities.
    Forty-five years after Congress passed NAPA, we have experienced 
great success in helping Native Americans achieve healthier outcomes 
with higher standards of living. I look forward to continuing our 
partnership in advancing these shared goals. Thank you for inviting me 
to speak with you again. I would be happy to answer any questions you 
may have.

    The Chairman. Thank you, Commissioner. I have to tell you 
that the Vice Chairman was extolling your virtues because you 
are a former staffer for John Thune. Correct?
    Ms. Hovland. That is correct, yes.
    The Chairman. That is great. Thanks for being here today 
and for your work. We appreciate it very much.
    Ms. Hovland. I am glad to be here, thank you.
    The Chairman. All right, Councilman Socobasin, again, 
thanks for being here, and please proceed.

  STATEMENT OF HON. JOSEPH M. SOCOBASIN, COUNCILMEMBER/FORMER 
                   CHIEF, PASSAMAQUODDY TRIBE

    Mr. Socobasin. Thank you.
    Chairman Hoeven, Vice Chair Udall, members of the 
Committee, my name is Joseph Socobasin. I am a member of the 
Passamaquoddy Tribal Council, and I am also a former Chief for 
the Passamaquoddy Tribe of Indian Township. Thank you for 
inviting me here today to provide testimony regarding the 45th 
Anniversary of the Native American Programs Act and the 
establishment of the Administration for Native Americans.
    The Passamaquoddy Tribe consists of 3,600 tribal members 
residing in three distinct self-governing Passamaquoddy 
communities. We are known as the People of the Dawn. Two 
communities are located in Maine, one is at Indian Township, 
the reservation I am from, or Megoknegook, and the other is 
Pleasant Point, or Sipayik. The third is located in St. 
Andrews, New Brunswick.
    Each community is separated by geography and a border, but 
the people continue to maintain political, social and kinship 
ties. Throughout the history of the Passamaquoddy people, we 
have lived off the land. One of our indigenous food gathering 
methods included harvesting the sweet sap of the sugar maple.
    In 2013, the Passamaquoddy Tribe created an economic 
development project to tap into this traditional, renewable 
natural resource; maple syrup. Owning more than 65,000 acres of 
forested land in northern Maine, and over 100,000 acres across 
the State of Maine, and the predominant tree species being 
sugar maple, provided us with an abundant renewable resource to 
harvest.
    In September of 2013, the Passamaquoddy Tribe was awarded 
our first ANA Grant for $1.5 million over a period of three 
years. With this funding, we created Passamaquoddy Maple, which 
is 100 percent tribally-owned and has allowed us to hire and 
train tribal members to properly install, maintain and operate 
modern maple equipment.
    Because of this initial grant, we have been able to obtain 
three additional grants that has allowed us to expand and 
improve our production and marketing for Passamaquoddy Maple. 
We received a grant through the Northern Border Commission for 
$250,000. This was used to build our sugar house.
    The USDA Rural Business Economic Development grant was 
awarded as well, and we used this for bottling and marketing of 
our maple syrup. The last grant we received was our second ANA 
grant, which enabled us to take our product to market and also 
to develop our website.
    The ANA funding and technical assistance has been critical 
to the development and success of the Passamaquoddy Tribe's 
economic endeavors. The technical assistance has provided a 
stable foundation of sustainable business that has allowed us 
to bring our indigenous product to a competitive market.
    Passamaquoddy Maple is organically certified and has 
expanded beyond maple syrup with a line of sugars and candies. 
All our products can be viewed online at our website, 
passamaquoddymaple.com.
    As a recipient of an ANA grant, we are grateful for the 
opportunity to offer testimony and our support.
    Woliwon, or thank you. I would be happy to answer any 
questions you have.
    [The prepared statement of Mr. Socobasin follows:]

 Prepared Statement of Hon. Joseph M. Socobasin, Councilmember/Former 
                       Chief, Passamaquoddy Tribe
    Mr. Chairman and Members of the Committee, my name is Joseph 
Socobasin. I am a member of the Tribal Council and Former Chief of the 
Passamaquoddy Tribe of Indian Township. Thank you for inviting me here 
today to provide testimony regarding the 45th Anniversary of the Native 
American Programs Act and the establishment of the Administration for 
Native Americans.
    The Passamaquoddy Tribe consists of 3,600 tribal members residing 
in three distinct self-governing Passamaquoddy communities. We are 
known as ``People of Dawn''. Two communities are in Maine, Indian 
Township and Pleasant Point, and the third is located at St. Andrews, 
N.B. Each community is separated by geography, but the people continue 
to maintain political, social and kinship ties. Throughout the history 
of the Passamaquoddy people, we have lived off the land. One of our 
Indigenous food gathering methods included harvesting the sweet sap 
from the Sugar Maple.
    In 2013 the Passamaquoddy Tribe created an economic development 
project to tap into this traditional natural resource; maple syrup. 
Owning more than 65,000 acres of forested land in Northern Maine, and 
the predominant tree species being sugar maple, provides us with an 
abundant renewable resource to harvest.
    In September 2013, the Passamaquoddy Tribe was awarded our first 
ANA Grant for 1.5 million over a period of three years. With this 
funding, it allowed us to hire and train tribal members to properly 
install, maintain and operate modern maple equipment. Because of the 
initial grant, we have been able to obtain three additional grants that 
has allowed us to expand and improve our production and marketing for 
Passamaquoddy Maple.
    The ANA funding and technical assistance has been critical to the 
development and success of the Passamaquodddy Tribes economic 
endeavors. Technical assistance has provided a stable foundation of a 
sustainable business that has allowed us to bring our indigenous 
product to a competitive market. Passamaquoddy Maple is organically 
certified and has expanded beyond maple syrup with a line of sugars and 
candies. All our products can be viewed online at our website 
Passamaquoddymaple.com. As a recipient of an ANA grant, we are grateful 
for the opportunity to offer testimony and our support. Woliwon
    Respectfully submitted.

    The Chairman. Thank you, Councilman.
    Governor Vallo?

    STATEMENT OF HON. BRIAN VALLO, GOVERNOR, PUEBLO OF ACOMA

    Mr. Vallo. [Greeting in Native tongue.]
    Good afternoon, Chairman Hoeven, Vice Chairman Udall and 
members of the Committee. Thank you for this opportunity this 
afternoon to provide testimony on behalf of the 45th 
anniversary of the ANA grant program.
    We have submitted a written testimony for the record. What 
I will do this afternoon is provide highlights of this 
testimony that speak to the Pueblo's ongoing commitment to work 
directly with ANA and other agencies and partners to ensure 
that the Acoma language is protected and preserved for future 
Acoma generations.
    I am [phrase in Native tongue]. The literal translation of 
my Acoma name is Black Mesa. And I had the opportunity this 
year to be appointed by the [phrase in Native tongue] clan 
system to serve as Governor of the Pueblo. Since 1996, my 
pueblo has been engaged with ANA in the development of a 
language retention program.
    This is the seed that we planted together with ANA to 
ensure that our language and the appropriate and culturally-
relevant programming associated with creating our internal 
strategy for the preservation of our language was, that that 
actually happened. That seed that was planted has grown into 
what we refer to as a sheltering tree that has allowed our 
pueblo the opportunity to engage in an ongoing program of 
language preservation and revitalization.
    Just last evening at our community gathering in Acoma 
Pueblo, the first of our gatherings this year, where the 
community comes together to learn of issues that are being 
addressed by the tribal leadership, and this is our tribal 
council, myself and our tribal administration, we had the 
opportunity to convey and inform our community of the workings 
within our tribal government. Historically, these meetings 
would have been conducted in our language. Today, we are 
fortunate that some of us who are Native speakers have the 
opportunity to convey this information, just as our ancestors 
did, in the same formal settings.
    It was made clear last evening at our meeting that the 
community remains committed, remains concerned and has directed 
us as leaders, as their leaders, to ensure that we do 
everything possible, that our language retention efforts since 
1996, that have manifested to what they are today, continue. So 
we will look to the ANA and we will look to the Federal 
Government for continued support in this effort.
    It is so vital to all of us in this room who come from 
these indigenous communities to restore our languages and to 
ensure that our own indigenous tongue and the associated 
cultures of our respective tribal communities are protected and 
are secure for the future of our respective tribes.
    So I thank the ANA and I thank this Committee and the 
agencies who have offered support of this effort to not only 
the Pueblo of Acoma but other tribes throughout the Country, 
and who have made the commitment to join us in this effort 
which is so critical and so vital to the continuance of 
indigenous peoples in this Country.
    Thank you.
    [The prepared statement of Mr. Vallo follows:]

   Prepared Statement of Hon. Brian Vallo, Governor, Pueblo of Acoma
    Thank you Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee for the opportunity to provide testimony on the unique role 
that Administration for Native Americans (ANA) grants and programs fill 
in Indian Country. My name is Brian Vallo and I am the Governor of 
Acoma Pueblo, located in northwestern New Mexico. Since 1996, our 
Pueblo has worked with the ANA to develop and implement short-term and 
multi-year grants that support language and cultural revitalization 
projects in our community. The manifold benefits of these grants cannot 
be overstated. We have seen first-hand how the seed from an ANA grant 
can grow into a sheltering tree for the entire community. My testimony 
describes Acoma Pueblo's positive experience with the ANA grant process 
and makes several recommendations for ways to strengthen it even 
further.
I. Administration for Native Americans
    Since its establishment in 1974 pursuant to the Native American 
Programs Act, the ANA has served as a valuable resource in helping 
Native communities achieve their goals in self-sufficiency and cultural 
preservation. The ANA provides discretionary grant funding for 
community-based projects, as well as training and technical assistance 
(T/TA). The beauty of ANA grants lies in the control that is given to 
tribal applicants in identifying an area of need within their community 
and developing a plan of action to address it with federal funding. The 
singular focus on community-based and community-driven projects that 
promote the exercise of self-determination and cultural flourishing 
makes the ANA unique within the federal family.
II. Acoma Pueblo's Experience in Leveraging ANA Resources for Vital 
        Language and Culture Programming
    The Seed--Acoma Language Retention Program. Acoma has over a decade 
of experience working with the ANA. Our first award was a planning 
grant in 1996 to establish a community-based language initiative known 
as the Acoma Language Retention Program. The Program was not intended 
to be nor was it implemented as an academic study of the Keres 
language. Instead, the Program's focus was on re-strengthening the link 
between the Keres language and Acoma cultural practices through an 
ambitious plan for language revitalization aimed at younger generations 
in the community. The community identified the widening disconnect 
between the number of knowledgeable Keres speakers, particularly among 
Acoma youth, and the level of engagement with our traditional cultural 
practices as a critical issue. ANA provided financial support enabling 
our Pueblo to establish its first language program tasked with finding 
solutions to this issue.
    Prior to the ANA grant, our Keres language had only been utilized 
as part of a limited federal bilingual education program at the local 
Bureau of Indian Education school between the 1970s and 1980s. When 
federal bilingual funding began to wane by the late 1980s, this program 
came to an end. The result was a gap of almost 15 years in the formal 
instruction of the Keres language. The ANA short-term planning grant 
enabled us to chart out a new framework for our language and cultural 
revitalization goals. We used ANA funds to compile data on the status 
of the language (i.e., language use in the community among different 
age groups) to identify the segments of the population most in need of 
Keres language learning support.
    The ANA was available to us as a resource throughout the grant 
development and implementation process. Critically, they limited their 
assistance to the technical aspects of the grant, such as data analysis 
and reporting final outcomes. It was left to Acoma to decide what was 
appropriate in carrying out the Program's goals. ANA operates on the 
understanding that tribal grantees have a specific vision for their 
communities and know what will work best for them. It does not dictate 
how federal funds should be used. Instead ANA grants are founded on and 
seek to advance the expression of our sovereignty by focusing on 
project outcomes and facilitating the realization of grantees' self-
determination goals. While other federal funding sources include self-
determination as one of many factors to be considered in a grant 
application and implementation process, the ANA is one of the rare 
federal partners that makes it the determinative factor in a grant 
award.
    The Growth--Keres Language Immersion Programs. Our ANA Grant 
activities were always meant to be fully accessible to all Acoma 
members. We did not want these to be limited to a classroom setting or 
only a segment of the population. To that end, the development and 
implementation of summer Keres language immersion programs for Acoma 
youth were designed to bring them together with Acoma elders and Keres-
speaking adults who led activities in our villages, in our ancestral 
home of Haak'u and in and surrounding locations on our reservation. The 
high visibility of these Keres language initiatives was important in 
fostering intergenerational cultural ties, language usage, and 
community engagement and support.
    As the activities funded by the ANA grant developed, their 
popularity within the community continued to grow. Our first attempt to 
pilot a two week summer immersion program brought Acoma youth, adults, 
and elders together to learn about Keres-based cultural practices. The 
program was so well attended that we subsequently offered a four week 
and later a six week immersion experience! As a result of these 
programs we saw more children and youth participating in cultural 
practices and actively engaging in community life. We also saw 
increased intergenerational engagement, which is critical to passing on 
the traditional knowledge that only our elders and fluent Keres 
speakers possess.
    The first generation of children to participate in the immersion 
programs in the 1990s are now adults and parents themselves. Many have 
become key participants in the socio-cultural traditions of the Pueblo. 
Those of us from the community have observed how those children have 
grown up and been shaped by the availability of Keres cultural 
programming. Now, the children of that first generation of 
beneficiaries have the opportunity to participate in Keres language 
classes, both in the community and in some local schools, are following 
in the footsteps of their parents and relatives in being integrated 
into the cultural practices and linguistic tradition of our community. 
We have been made stronger from the inside because of it. The benefits 
of that original ANA short-term planning grant continue to translate 
into long-term positive gains for our community.
    The Branches--Expansion and Leveraged Funding. After our community-
based programs were firmly established, we began to expand the sphere 
of Keres cultural teaching into the classroom setting. The Tribal 
Council guided the carefully designed vision as it was implemented in 
our local school system in the early 2000s. We first expanded to the 
local BIE school, then to a local public high school and elementary 
school, and finally to a parochial pre-kindergarten program. The phased 
expansion of our vision was only made possible because of ANA support. 
ANA grants allowed us to train Acoma language teachers, develop 
curricula, and implement the program in diverse settings. Throughout 
this process, we maintained fidelity to our original vision of 
strengthening the community by renewing the link between the Keres 
language and Acoma cultural practices.
    As a result of our expansion into public schools, Acoma found 
itself on the forefront, along with several other key Pueblos, in 
pushing local school districts to enter into Memorandums of 
Understanding regarding the implementation of Keres language immersion 
programs. Acoma wanted to ensure that the Pueblo maintained control of 
its programs and full ownership of the materials developed for and used 
in the programs. We also wanted to be sure that the programs were 
taught only by Acoma teachers and served all interested Acoma students 
so that they could stay firmly rooted in their Pueblo identities and 
language as they matriculated from elementary to middle school and on 
to high school.
    We encountered challenges along the way. For example, one challenge 
stemmed from the mistaken view that immersion programs discriminated 
against other students because they targeted only students who were 
from our community. With strong support from a State Education 
superintendent, we made it clear that the offering of such programs 
aligns with our status as sovereign pueblos and tribal nations with 
inherent powers of self-governance over our members, including the 
authority to govern how matters of cultural sensitivity and language 
are taught to our children and youth.
    Another challenge arose from the fact that many of our Acoma elders 
and Keres-speaking adults lacked formal teaching degrees, which created 
administrative issues for public schools under the No Child Left Behind 
Act. Acoma once again stood at the fore in advocating for an 
alternative pathway for teacher certification so that our children 
could have access to appropriate instructors in their Keres classrooms. 
As the result of a collaborative multi-year effort with other New 
Mexico tribes, New Mexico adopted an alternative certification for 
speakers of Native languages teaching Native languages in public 
schools in 2003. Alternative certifications are only issued by the New 
Mexico Public Education Department on the recommendation of a Pueblo or 
tribal nation. Pueblos and tribal nations in the State thus maintain 
control over which instructors are deemed qualified to teach their 
indigenous language, as well as how such lessons and programs are 
carried out.
    Further, because of our proven track with management and 
implementing other related ANA grants, we have been able to leverage 
non-federal funds to further our long-term goals. We have leveraged 
private funds and state funds to pilot early childhood education and 
other summer language and culture programs. Our successful management 
of these funding sources eventually led the Tribal Council to commit 
internal tribal resources to this effort. We have had support from all 
levels of government, as well as the private sector, in carrying out 
our vision of a strong and vibrant Keres language community at Acoma 
Pueblo.
    The Sheltering Tree--Intergenerational Engagement with Keres-Based 
Cultural Practices. The expanded access to and engagement with Keres-
based cultural practices would not have been possible but for the 
support of the ANA. Beginning with the seed of the short-term ANA 
planning grant in 1996, our Acoma Language Retention Program has 
offered an impressive array of programs and initiatives that have 
provided manifold benefits to our members. We have seen increases in 
the participation of Acoma youth in traditional practices; 
intergenerational engagement within the community; respect for and 
understanding of Pueblo sovereignty and traditions in public schools; 
and the resiliency of our Acoma youth, adults, and elders. Each of 
these achievements is rooted in and nurtured by the ongoing 
revitalization of our community oriented Keres-based cultural 
practices.
    We have also been able to share the strength and beauty of our 
community with others pursuant to an ANA Social and Economic 
Development Strategies (SEDS) grant for the planning and development of 
the Sky City Cultural Center and Haaku Museum. Acoma Sky City is the 
heart of our community. We have lived at our mesa-top home for at least 
1000 years, making it the oldest continuously inhabited community in 
the United States. Acoma religious, cultural, and social life revolves 
around Sky City, both on a daily basis and during festival times. ANA 
funding has been instrumental in preserving this cultural resource for 
present and future generations.
III. Recommendations Related to ANA Programs
    While our experience with the ANA grant application and 
implementation process has been generally positive, we believe that are 
always ways to improve the process going forward. For example, it is 
our understanding that internal agency is working towards streamlining 
the application process. We support this effort. Ensuring that the 
application is as simple and efficient as possible would remove 
needless administrative burdens that might otherwise create barriers to 
access for tribal applicants. Acoma Pueblo is lucky to have experienced 
grant writers on staff. Other pueblos, tribal nations, and Native 
communities are not so fortunate. Streamlining the application process 
is critical to applicants with limited administrative and financial 
resources.
    We also hope that the ANA will continue to provide training and 
technical assistance on the intricacies of the grant development, 
implementation, and outcome reporting process. This ties into our 
initial recommendation on efficient application processes. For tribal 
applicants of all internal capacities ANA training and technical 
assistance is important to the effective management of federal grants 
and appropriately reporting outcomes for accountability. The ANA 
provided key technical support during the lifecycle of each of our 
grants. Today, we are in the last year of a multi-year grant to 
complete an online Keres dictionary project and ANA technical 
assistance has assisted us in tracking progress towards that grant's 
goals.
    We recognize that many tribal applicants do not have the internal 
capacity to support full immersion programs. We encourage the ANA to 
provide early technical assistance in helping applicants navigate the 
myriad pathways that they can choose from in developing a language and 
cultural revitalization program that is best suited to their 
community's needs and capabilities. Meeting applicants where they stand 
is essential to long-term project success.
    We also firmly believe that every community, regardless of its 
current capabilities or the status of its programs, can achieve 
significant gains in language and cultural revitalization over time. We 
urge the ANA to maintain diversity in the range of grant periods that 
are available to applicants. Grant cycles of six months to six years 
enable applicants to develop projects according to the natural ebbs and 
flows of their community. We urge the ANA to preserve this flexibility.
    Thank you for the opportunity to participate in this important 
oversight hearing on establishment of the Administration for Native 
Americans and its role in Indian Country today. On behalf of the Pueblo 
of Acoma, we thank you for your dedicated work on behalf of all 
pueblos, tribal nations, and Native communities, particularly in the 
advancement of our self-determination. We hope to have the opportunity 
to show you first-hand the strides we are making in integrating the 
Keres language into our daily and ceremonial life during a future visit 
to the Pueblo of Acoma. Da'wa'eh; Thank you.

    The Chairman. Thank you, Governor Vallo.
    Now, Chairman James, if you would proceed with your 
testimony.

STATEMENT OF HON. JOE JAMES, CHAIRMAN, YUROK TRIBE; ACCOMPANIED 
               BY TIANA WILLIAMS-CLAUSSEN, LEAD 
                           BIOLOGIST

    Mr. James. [Greeting in Native tongue] Joe James. My name 
is Joe James, I come from the Village of Sregon, located on the 
Lower Klamath River.
    Good afternoon, Chairman and distinguished Committee 
members. As I mentioned, my name is Joseph ``Joe'' James, 
Chairman of the Yurok Tribe. The Yurok Tribe appreciates the 
opportunity to share our story about California condor recovery 
in the Yurok ancestral territory. The tribe looks forward to 
continuing the work of the Senate Committee on Indian affairs 
with the action of restoring the Yurok homeland, including 
securing passage for the forthcoming Senate bill of the Yurok 
Lands Act, H.R. 1312, which was introduced in the United States 
House of Representatives on February 19th, 2019.
    The Yurok Land Act supports many of the Yurok restoration 
activities, including condor reintroduction. We appreciate our 
staff, our Yurok tribal citizens and biologists, Tiana Williams 
and our team, for their vision through leadership in this case. 
We are joined by her, her mother and child, representing the 
future of this work.
    For background purposes, the contents of this work, the 
California condor has not flown over Yurok sites in a hundred 
years, a great loss to us, due to its critical cultural 
importance. The condor helps us bring promise to the world. Due 
to environmental damage, influx of new materials toxic to the 
birds, reducing their worldwide population to 22 birds. Captive 
breeding and reintroduction has raised the numbers to over 450 
in the Yurok Tribe, once a part of the successful in bringing 
more birds home. The Yurok wildlife program was established in 
2008, with funding from the U.S. Fish and Wildlife Services, 
with condor as its flagship species. Our aim was to establish a 
release facility in northern California in the Yurok ancestral 
territory on Bald Hills Road.
    Funded by our ANA environmental regulatory enhancement 
grant, we are using the Redwood National Park facility to 
create a management and operations center, and as co-leads in 
the environmental assessment with the Key West Fish and 
Wildlife Service. The current ANA 2019-2021 grant will provide 
the final critical infrastructure needed for the successful 
recovery of the condor that provides cultural, social, 
environmental and economic benefits to our tribal communities. 
More in-depth information is provided in the submitted written 
comments.
    Studies indicate the Yurok ancestral territory has capacity 
to provide excellent habitat and human-caused damage has been 
largely rectified under current environmental policies. Low 
human populations are to minimize or decrease the risk of 
negative human interactions. And our climate is likely to 
remain roughly on 100-year projections for maintaining habitat 
viable.
    An LOU has been signed with multiple Federal and State 
regulatory partners. We are undergoing an environmental 
assessment process under NEPA to plan the release of the birds 
in the fall of 2019. The tribe is a co-lead in the NEPA 
process, which provides the tribe an important role in the 
project management and decision-making process.
    Condor reintroduction meets the goals of the Yurok tribal 
constitution, the Yurok land management plan and the integrated 
resource management plan, as well as protections proposed under 
the Yurok Lands Act, which will substantially increase the 
tribe's capacity to manage the condors.
    We offer the following recommendations for this grant. 
Provide funding to attend in-person grant development 
trainings, conduct a request for proposal overhaul, developed 
and require viewing of an application and available resource 
webinar, allow more time for applications to be completed, 
encourage Federal agency partners in promoting tribal self-
governance and annual funding agreements, and secure annual 
funding for these types of activities. ANA has and can continue 
to be a major component of the Yurok Tribe's success.
    In closing, we appreciate this opportunity to testify on 
the benefits of ANA's support, specifically with culture and 
government leaders, elders and our youth who will be the first 
generation to grow up with condors to fly for a hundred years. 
Again, on behalf of the Yurok Tribal Council, the Yurok Tribal 
Government and the people of the Yurok Tribe, we thank the 
Committee and the ANA's program that has been so vital and 
critical to the Yurok Tribe.
    [Phrase in Native tongue.]
    [The prepared statement of Mr. James follows:]

      Prepared Statement of Hon. Joe James, Chairman, Yurok Tribe
Introduction
    Good afternoon Chairman and distinguished Committee members. The 
Yurok Tribe is grateful for the opportunity to share our work toward 
California condor recovery to Yurok lands. The Tribe looks forward to 
continuing to work with the Senate Committee on Indian Affairs on 
actions restoring the Yurok homeland, including securing passage of the 
Yurok Lands Act, which was introduced into the United States House of 
Representatives on February 21st, 2019. The Yurok Lands Act will 
support a myriad of Yurok restoration activities, including condor 
reintroduction.
    I also want to thank the Yurok Tribal Chairman, Joe James, for 
allowing me to share my personal experience with the condor 
reintroduction program. I am Tiana Williams-Claussen, a lead biologist 
for the Yurok Tribe Wildlife Program, and a Yurok tribal member. My 
family comes from the village of Wehl-kwew, near the town of Klamath, 
CA, the current headquarters of the Yurok Tribal government in far 
northern California. I received my Bachelor's degree in Biochemical 
Sciences from Harvard University, and am currently pursuing a graduate 
degree in Natural Resources with an emphasis in Wildlife Management 
from Humboldt State University. I was the first employee of the Yurok 
Tribe Wildlife Program, which was instituted in June of 2008 with 
funding from the U.S. Fish and Wildlife Service (USFWS) Tribal Wildlife 
Grant Program. I began my career with the Yurok Tribe as an employee of 
the Environmental Program, and also spent a year as an employee of the 
Tribal Office of Self-Governance, which proved excellent experience in 
the partnership building required for the condor reintroduction 
program.
Traditional Ecological Knowledge and the Importance of the California 
        Condor
Importance of Condor to the Yurok Lifeway
    Prey-go-neesh (California condor (Gymnogyps californianus) 
(condor)) was one of the first people of the world, and one of the most 
powerful beings in Yurok cosmology. He is a sacred spirit, a scavenger 
who never partakes of killing or violence. Instead he takes directly 
and transforms it back into life, the purest form of renewal. This, 
combined with his ability to fly the highest, equipped him as the 
messenger to carry Yurok prayers to the heavens to be received by the 
creator. As such, he figures prominently in the Yurok concept of world 
renewal, the Yurok reason for being, and is integral to our world 
renewal ceremonies, our highest ceremonies. The Yurok people have been 
critically affected by the overall loss of condor across the landscape, 
as he has not soared the skies over Yurok Ancestral Territory (YAT) in 
over a century.
    While the Yurok people carry on without condor, our ceremonies are 
impacted by not having him to gift us his feathers, critical for use in 
important regalia, and by not having him in our skies to carry our 
prayers. Interviews with Yurok culture bearers emphasize that Yurok are 
a part of the system, integral to it, and inseparable from it; thus the 
inability to engage with traditional ecological community members like 
the condor limits our capacity to be Yurok.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Yurok youth in particular suffer from the loss of condor. Each 
species plays a significant role, provides a specific example, and 
teaches us how to live well in this world. The world is not complete 
when one winks out. The importance of the condor's role cannot be 
overemphasized. It is difficult to teach about a species that has not 
been seen in over a century, and belongs more to the realm of myth than 
reality for youth. The language of world renewal, and the traditional 
way of thinking that it conveys, is at risk when that connection is 
lost. The resulting loss of culture degrades societal cohesion and the 
support it provides. A strong foundation in culture is necessary as a 
buffer against the social ills that plague many tribal peoples by 
providing a center to which they can anchor. Because of condors' grave 
importance to the Yurok people, Yurok elders have designated the condor 
as the single most important terrestrial species to restore to YAT. To 
quote a prominent ceremonial leader, ``The return of the condor means 
restoring balance for us.''
    The Yurok people understand the deep connections between the 
environment and the wildlife that relies on it. Because of their role 
as an apex species, condors are indicators of ecosystem health, 
especially when that health is falteringCondors best thrive in areas 
free of contaminants, with a complex mosaic of habitat, and well 
supported megafauna populations. Similarly, Yurok people thrive under 
such circumstances. When the Yurok take care of their environment and 
the species that rely on it, they are in turn taking care of their own 
people, in a cycle of reciprocity that has maintained the Yurok people 
since time immemorial. In a very real way, restoring condor habitat and 
returning condor to Yurok skies is a clear restoration of the Yurok 
people, homeland, ecological systems, culture, and lifeway.
Importance of the Condor Within the Broader Ecological Context
    The California condor also holds a critical role in California's 
natural ecosystems. Historically, condors played an important role as 
scavenger. Recent studies have shown that in many ecosystems, vultures, 
a class of birds that includes condors, undertake nearly a quarter of 
the removal of carcasses from natural landscapes. Lacking this 
ecosystem service, some countries have had to increase government 
funded carcass removal to stem increases in mammalian scavengers like 
feral dogs, which often conflict with humans and spread disease. Clean-
up actions no longer performed by vultures, coupled with increased 
health care costs, have led to increased government expenditures in the 
tens of billions of dollars.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Causes Of Condors' Decline
    Yurok people understood the slow reproductive rate of condors. As a 
result, traditional knowledge held they were not to be harmed. However, 
the same did not hold true of colonizing Euro-Americans who prized 
large feather quills for use as gold dust containers, and collected 
over 300 condors between 1792 and 1976: including 41 for ``sport'' and 
177 for ``scientific'' collection. Additionally, new contaminants were 
introduced to the region's system. Strychnine laced carcasses were 
widely placed across the landscape targeting large mammalian predators, 
such as grizzly bears and wolves, and killed scavenging birds just as 
effectively. Poisoned bait put out for varmints also likely killed 
large numbers of condors incidentally.
    Also, lead ammunition was introduced to western North American by 
settlers. Highly malleable and dense, lead ammunition by design 
mushrooms and fragments upon impact with animal tissues. This action 
rapidly transfers the kinetic energy of projectiles into hydrostatic 
shock waves passing through tissue and organs, maximizing killing power 
for a quick and humane knockdown. As an unintended side effect, these 
fragments subsequently contaminate unrecovered game and gut piles left 
behind by hunters when field dressing game. Lead fragments as small as 
the head of a pin are sufficient to kill a condor. It was once believed 
that condors were particularly susceptible to lead toxicosis; however, 
recent studies show this to be incorrect. It is not that condors are 
more susceptible than other scavenging raptors, such as bald and golden 
eagles; rather, their wide ranging foraging patterns and focus on large 
carcasses causes them to more frequently encounter lead tainted 
carcasses. Their long-lived and slow breeding life-style means that 
even moderate increases in mortality rates create population level 
effects. Mortalities from lead toxicosis have resulted in a median 
lifespan of reintroduced condors of less than eight years, very short 
for a species which breeds at around seven or eight years of age and 
with a natural life-span estimated at more than 70 years. Lead 
toxicosis has undeniably contributed to their overall decline, and 
remains the leading cause of wild condor deaths today. Studies show 
that 26 percent of juvenile condor mortalities and 67 percent of adult 
condor mortalities have been due to lead toxicosis from ingestion of 
lead ammunition. When the population reached its low of 22, the 
decision was made to capture all of the birds left in the wild, in hope 
of initiating a captive breeding program and saving the species.
    In sum, the condor population declined rapidly after Euro-American 
settler contact. It was one of the first species listed under the 1973 
Endangered Species Act. The population reached its low of only 22 
individuals by 1982. Without intervention extinction looked inevitable. 
By 1987, the last 15 remaining wild hatched birds were taken into 
captivity and saved from mortality factors that were not yet fully 
understood, and a successful breeding population was established.
    Reintroduction Into the Wild: Successes and Challenges
    Successful breeding strategies developed and implemented by captive 
rearing facilities allowed the reproductive rate of one chick per pair 
every other year to be increased to two chicks each year. By the mid-
1990s, captive reared birds were plentiful enough to begin releases 
back into the wild. Reintroductions have established condors in central 
and southern California, Arizona, and Baja Mexico. But recovery has not 
been without challenges. At this time, though nearly 500 condors have 
been introduced to the wild since reintroductions began, only around 
300 remain in the wild, with about as many living in captivity. This 
reflects a mortality rate of over 40 percent, which is high enough to 
prevent the current population to be self-sustaining. These mortalities 
have, however, provided crucial information regarding the sources of 
mortality and allowed program managers to begin addressing causes 
directly.
Growing Human Effects--Exponential Population Growth and Climate Change
    The majority of recent mortalities have been linked to human 
causes, including death by lead contamination, collision with human 
infrastructure, micro-trash ingestion, and shootings by poachers. 
Considering that human population growth projections predict 
exponential expansion in southern and central California, the 
likelihood of increasing human conflict with condors seems inevitable. 
Conversely, the same human population projections did not assess 
northern California, with its sparsely populated status relative to 
central and southern California, as projected growth was expected to be 
so minimal as to be inconsequential. Further, based on expected climate 
change projections over the next 100 years, it has been hypothesized 
that many existing condor reintroduction sites may become climatically 
unsuitable for condors. Climate change assessments indicate that 
coastal northern California, and much of the larger Pacific Northwest, 
should have habitat and climate conditions that are suitable for 
supporting condors throughout the next century.
Regional Positive Impacts of Condor Recovery
    Condors contribute significantly to economies in the areas they 
thrive, including the coastal Big Sur area near Ventana Wildlife 
Society's release site and in the Grand Canyon and Pinnacles National 
Parks. Tourism has increased by countless bird enthusiasts who list the 
chance to see a condor as their primary reason for their visits. A 
similar boost to tourism could be expected on the California north 
coast, with the complementary draw of Redwood National Park, home of 
the largest trees in the world, and the majestic condor with its 9.5-
foot wingspan. Del Norte and Humboldt Counties suffer under economic 
disadvantage, relying heavily on tourism to support their economies. 
The Tribe sees the potential to grow tourism-based business related to 
condor viewing itself, such as birding tours and related ecotourism 
ventures, but also in terms of motels, restaurants, and all other 
businesses required to support an influx of new visitors.
    Condor reintroduction will also directly benefit tribal youth who 
are beginning careers in Natural Resources. The Condor Internship 
Program, to be initiated under the current Environmental Regulatory 
Enhancement grant, will focus on hiring Native American and indigenous 
students or recent graduates in Natural Resource fields in order to 
provide them hands on, real world experience, as well as a stipend to 
help them meet their career goals. The goal is to hire six tribal 
interns annually, rotating new tribal students in every six months to 
spread the opportunity to gain experience as far as possible.
    Furthermore, the Tribe has adopted a holistic approach to ecosystem 
management which takes into account ecosystem health, cultural needs, 
and economic growth. Over the last ten years, the Tribe has reacquired 
over 60,000 acres of forested land adjacent to the east side of the 
current reservation boundary. The Tribe has developed a land management 
plan with ambitious goals including creation of a salmon sanctuary and 
forest area for carbon sequestration. The condor has been included as a 
special status species in the plan, which calls for the land to be used 
to support condor habitat. The next step will be to secure passage of 
the Yurok Lands Act that will expand the Yurok Reservation to include 
the reacquired lands, enabling the Tribe to regulate and govern the 
land consistent with the land management plan.
    This coupled with Yurok's existing land and river management 
throughout the Reservation creates ideal habitat for condor, as well as 
other species. For example, restoration of natural prairies and oak 
woodlands will benefit a species like the condor, by promoting food 
resource species such as elk, deer, and bear. Because of condors' 
status as an apex species, these other species populations will thrive, 
which has the further benefit of providing an increase in food 
resources to the tribal membership, which is still a largely 
subsistence hunting and fishing population. As condors expand across 
their historical range, their positive impact on ecology, society, and 
the economy grows.
Benefits to Condor of Reintroduction to California North Coast
    Based on Yurok elder's guidance, the Yurok Tribe sought funding to 
begin what would become a decade long journey toward condor recovery in 
YAT. In 2008, the Tribe received its first funding from the USFWS to 
begin analyses to determine if the Yurok homeland had healed 
sufficiently for condor to return home. This was the first step in 
creating the Yurok Tribe Wildlife Program (YTWP), for whom the condor 
was the flagship species, and from which a variety of wildlife 
management projects have grown.
Habitat Requirements
    Initial assessments focusing on condor requirements, including 
sufficiency of roosting, nesting, and foraging needs indicated that the 
requisite habitat characteristics are abundant in Yurok Country. 
Roosting requires flight access and appropriate roost structures, which 
are plentiful in northern California. Traditional ecological knowledge 
described historical condor roost and nest sites, and conversations 
with local redwood canopy expert Steve Sillett indicated the likelihood 
of abundant large redwood cavities, like those used elsewhere as nests 
by condors, in Redwood National and State Parks lands (adjacent to 
Yurok Country). Redwood National Park maintains the Bald Hills, an 
extensive chain of forage supporting prairies. The Kneeland area in 
northern Humboldt County, where the last two documented condors in 
northern California were killed is also maintained, though largely for 
agriculture. Combined, these prairie chains provide extensive 
communities of wild ungulates and predators, in addition to domestic 
livestock which provide foraging opportunities for condors.
Contaminants of Concern to Condor Reintroduction
    YTWP also conducted assessments for environmental contaminants in 
local avian scavengers that would utilize potential food resources that 
condors might be expected to exploit in the northern California region. 
Lead ammunition fragments ingested in animal tissues is the leading 
source of mortality in reintroduced condors and eggshell thinning in 
breeding reintroduced condors has been linked to organochlorine 
pesticide contamination, in this case DDT, in dead, stranded marine 
mammals.
    Lead levels were assessed under funding from the Tribal Wildlife 
Grant through avian scavenger surrogates, turkey vultures and common 
ravens. As expected, since lead ammunition was still in use in the 
sampling area, some individuals were found to have elevated lead 
levels, with a statistically significant increase occurring during 
hunting season. Nevertheless, levels found were lower than in any other 
region where similar surrogates were studied, indicating that northern 
California may face lower mortality rates than other reintroduction 
areas.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    DDT, though banned in the 1970s, continues to persist in the 
environment. Being fat-binding, it bioaccumulates in fatty tissues of 
long-lived species, especially those with thick blubber layers such as 
California sea lions. Sea lion blubber has been sampled for DDT in 
sites ranging from the Southern California Bight, the site of 
intentional dumping of DDT waste products by Montrose Chemical 
Corporation in the past, to Washington State. In general, a south to 
north decreasing trend in contaminants has been observed, and which has 
held true off the coast of YAT in a study funded by the Tribal Wildlife 
Grant and the National Park Service (NPS). Condors observed to feed 
frequently on sea lions in the Big Sur area have observable eggshell 
thinning and mortality in some eggs. However, many do survive and it 
seems that levels of DDT encountered by these birds are just on the 
threshold of lethal effect for eggs. This provides hope that the levels 
measured in northern California, several magnitudes lower, may prove to 
have an even lesser effect on eggshells and egg survivorship.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Partnerships Developed to Support Reintroduction
    To support condor recovery, the Yurok Tribe developed partnerships 
with federal, state, and private land managers. A Memorandum of 
Understanding (MOU) was signed between the Tribe, USFWS, NPS, 
California Department of Parks and Recreation, and Ventana Wildlife 
Society, establishing northern California as a future release location 
that would provide prime habitat, meet Condor Recovery Plan directives, 
and positively benefit the overall population. The MOU was expanded to 
include the U.S. Forest Service, the Bureau of Land Management, the 
California and Oregon Departments of Fish and Wildlife, Oregon Zoo, 
Sequoia Park Zoo, Oakland Zoo, Pacific Gas and Electric (PG&E) and 
Pacific Power Company (utility companies), Green Diamond Resource 
Company (a major timber organization), and the Hells Canyon 
Preservation Council as stakeholders and partners in recovery.
    The Yurok Tribe is now poised to enter the final phase of 
preparation before condor releases. This includes completion of an 
Environmental Assessment under the National Environmental Protection 
Act (NEPA), for which the Yurok Tribe is serving as a co-lead along 
with the USFWS and NPS, and the construction of condor release and 
management facilities, as well as a staff base of operations, with the 
goal of releasing condors into YAT in the fall of 2019. When enacted, 
the Tribe's Lands Act would support this type of federal, tribal, 
state, and private partnerships by providing more congressional 
authorization for these types of innovative, efficient, and effective 
partnerships that the Tribe desires to replicate in other areas.
Innovation in Planning and Implementation
    The Yurok condor reintroduction program is innovative in that it is 
the first such to be led by a tribe. The path forged by Yurok is paving 
the way for other tribes, like the Nez Perce who are pursuing condor 
reintroduction in their own territory in Idaho, in the Hells Canyon 
region. Not only did the Tribe take the lead in all habitat analyses, 
project development, fundraising, partnership building, and community 
outreach, they have since taken on a formal leadership position as co-
leads in the NEPA process. Furthermore, this project is targeting an 
experimental, non-essential designation under Section of the 10(j) of 
the Endangered Species Act (ESA) . This does not mean that the condors 
are any less valuable than those at other sites in California, which 
maintain their fully protected status. Rather, loss of the population 
will not risk extinction of the species. Further, comprehensive 
management of genetic lineages will assure that no extremely 
genetically valuable birds will be risked at the new site until several 
releases have been undertaken and there is reasonable assurance that 
there are no unforeseen risks in the new area. The primary benefit of 
the 10(j) designation is that it allows for specific modification of 
conservation measures defined under the ESA to be retained as 4(d) 
rules. While the definition of ``take'' is relatively expansive, it 
provides important protections to listed species. However, not all 
examples of ``take'' may cause harm. Considering the relatively 
resilient nature of condors, the ascribed 10(j) designation developed 
for this release project effectively refines regulation to protect 
local industry partners like Green Diamond Resource Company, Pacific 
Power, and PG&E, while still protecting the species from egregious 
actions such as intentional take. PG&E has expressed their appreciation 
that the Tribe engaged them early, to reduce negative infrastructure 
and species interactions. As a partner in this project, PG&E has 
provided $170,000 to support the condor release site.
    The Yurok Tribe sees the benefit to protecting Yurok forestry 
practices, including timber harvest and land restoration, through 10(j) 
designations. Examples of the latter would be prairie restoration to 
expand foraging areas and tree thinning projects targeting old growth 
forest production which will actually improve the land for condors by 
providing future nesting habitat. In order to enable the 10(j) 
designation, the Tribe worked diligently with Green Diamond Resource 
Company to develop California legislation that allows consistency 
between state and federal laws such that the California Department of 
Fish and Wildlife may defer to the USFWS regarding the 10(j) 
designation with respect to this release site, which was passed into 
law. Ultimately, the goal is to reduce potential negative impacts on 
local stakeholders while still fully protecting the birds.
Innovation Funded by the Administration for Native Americans, 
        Environmental Regulatory Enhancement Grant
    The Administration for Native Americans (ANA) Environmental 
Regulatory Enhancement grant (ERE) has played an integral role in the 
Tribe's success, having first been granted to YTWP in 2010. The beauty 
of the ERE opportunity is in its uniqueness amongst federal grant 
opportunities. Most federal grants available to tribes have priorities 
that they identify as requirements for funding, and the applicant must 
adapt their own needs to that of the funding opportunity. The ERE grant 
approaches from the opposite direction. ERE asks the applicant to delve 
deep into tribal community need, as identified by the community itself, 
and to design a project specific to that need in a way that makes sense 
and will be most effective in that specific community. The application 
process is based on the foundation of community investment to assure 
the greatest likelihood of success of the project within the unique 
environment of that community, which in this case, involved both the 
tribal and broader community.
    This first ERE grant the Tribe received sought to bridge the gap 
between a typically ``environmentalist'' issue, condor conservation, 
and what might be conventionally considered a conservative concern, 
hunting and rights under the Second Amendment of the Constitution. The 
Tribe saw, and sought to address, a potential conflict in the 
intersection. YTWP staff engaged in this funding opportunity were all 
hunters and understood that the these issues were not at odds, but were 
instead an opportunity to develop a new partnership in condor 
conservation. The hunting community already has a long history of 
conservation leadership, for example, leading the way to banning the 
use of lead shot in harvesting waterfowl due to its detrimental effects 
on waterfowl populations.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    With this understanding, YTWP established the ``Hunters as 
Stewards'' education and outreach project under ERE, aimed at sharing 
information about the impacts of the use of lead ammunition on condors 
and other raptors, the potential impact on human health and child 
development if ingested (this being of particular concern to the Tribe 
as a subsistence hunting community), and making the switch to non-lead 
alternatives. YTWP handed out ammunition at gun shows, hosted shooting 
events at which sportsmen could try the ammunition in their own rifles, 
became California Hunter Education teachers and taught new hunters 
about non-lead alternatives as a part of conservation ethics, engaged 
with regional ammunition retailers to ensure their accurate 
understanding of the issue, and created display pieces for general 
outreach showing the fragmentation potential of lead as compared to the 
most common alternative materials, copper and copper alloys.
    Yurok Tribe headquarters are situated in rural, conservative Del 
Norte County in the far north of California, where hunting is a way of 
life for many, providing a large audience. The Hunters as Stewards 
program, instituted under ANA, established outreach mechanisms, talking 
points, and invested YTWP as part of the accepted hunting community, 
and continues its advocacy today. As a part of the initial ERE project, 
before and after surveys indicated that, varying depending on the 
event, 85-95 percent of hunters engaged recognized the efficacy of non-
lead ammunition, saw the benefit of making the switch voluntarily, and 
said that they planned to do so. Only 2 percent indicated that they 
still preferred lead, and the rest either did not answer or at worst 
indicated that they felt more informed about the topic. YTWP counts 
those who said they would make the switch as full partners in condor 
conservation, with positive impacts on all other species impacted by 
use of lead ammunition.
Yurok ERE FY 2019-2021
Goals of ERE FY 2019-2021--Building Capacity to Implement Condor 
        Reintroduction
    The most recent ERE grant received by the Tribe for the FY 2019-
2021 budget periods continues to support Yurok leadership in California 
condor recovery. ERE funding supports essential components of the 
recovery program, including:

        1) hiring of a lead condor field biologist;

        2) renovation of an existing NPS structure to construct a new 
        Condor Management Operations Center (CMOC);

        3) creation of the Condor Internship Program (CIP) aimed at 
        providing Native and Indigenous students career advancing 
        experience in wildlife biology;

        4) development of all programmatic data collection and sharing 
        protocols

        5) creation of condor management protocols;

        6) Creation of a roles and responsibilities Memorandum of 
        Understanding with NPS and USFWS;

        7) creation of an innovative geospatially based condor threat 
        identification system (CTIS)which will help us manage against 
        risk factors before interactions even occur; and

        8) seven staff training workshops on radio and satellite 
        tracking, handling, and treatment of condors in the field.

Federal and Non-Federal Leveraged Partner Resources
    The aforementioned work is completed in partnership with a wide 
variety of entities. The renovation of the CMOC has come about from a 
strong partnership with Redwood National Park (RNP). The Yurok 
Reservation is the only Indian Reservation with National Park Land 
within its boundaries which has led to unique opportunities for co-
management. The need for co-management is heightened as the RNP land in 
the Reservation includes one of the Tribe's most sacred ceremonial 
sites. (The Lands Act includes authorization for additional MOU 
opportunities between RNP and the Tribe).
    Another major deliverable of the Yurok Tribe's current ERE grant is 
to develop a Memorandum of Understanding with the RNP and USFWS 
establishing roles and responsibilities related to the proposed 
reintroduction program, so the partnership can flow seamlessly. The CIP 
will be created in conjunction with locally based Humboldt State 
University's Indians in Natural Resources, Sciences, and Engineering 
Program (INRSEP), with the aim of drawing in Native and Indigenous 
students in those fields, to either jump start their career, or to 
provide college credits. INRSEP has also promised to work as a conduit 
to other university tribal programs to extend the CIP's reach across 
the country. The CTIS will utilize the latest in geospatial tools, and 
be developed in conjunction with partner PG&E which is beginning to 
create a similar warning system at the existing condor release sites. 
All programmatic protocols are being created in coordination with 
existing condor recovery partners, which include the USFWS, NPS, 
Ventana Wildlife Society, and Peregrine Fund, all of whom are providing 
training, expert advice, or example documents, protocols, and 
schematics so the Tribe can benefit from their hard won expertise.
How ERE Fits into the Journey of Condor Reintroduction in Yurok Country
    Since the very beginning, the ERE has provided critical and 
complementary funding to the overall goal of condor reintroduction, a 
significant piece of a large and complex puzzle. The Tribe has received 
funding from the USFWS to conduct habitat assessments, and to engage in 
the NEPA process. The NPS is providing staff resources, support 
infrastructure, and has drawn in the partnership of the National Park 
Foundation. The Bureau of Indian Affairs has provided additional 
funding to expand existing federal projects, for example contributing 
funds to develop an emergency response plan as one of the protocols 
necessary for successful implementation, and for continuing the Hunters 
as Stewards Program started under the ERE, as well as expanding 
outreach to the broader conservation community in general to bring 
regional support for the project.
    The Tribe has also received support from private industry, like 
Green Diamond Resource Company, and Pacific Gas and Electric, as well 
as from non-profits like the Oregon and Oakland Zoos which are entering 
into agreements to treat condors as necessary, along with the Sequoia 
Park Zoo which is building an entire quarantine and treatment area to 
provide in-house veterinary support only an hour and a half from the 
proposed release area.
Metrics for Success
    Each component of the ERE is vital to the success of the Yurok 
Tribe's condor reintroduction goals. Successful creation or completion 
of each deliverable described above will be a tangible and long-lived 
benefit that will support condor recovery for the life of the program. 
Ultimately, implementation of condor releases is a final deliverable of 
this ERE grant, attainment of the dream that the Yurok Tribe has been 
working toward for more than a decade.
Contribution to Goals of Federal Regulatory Statutes and Other Programs
    The work targeted for completion within the proposed activities of 
this ERE project does not stand in a vacuum, but builds upon needs 
dictated by the larger California condor conservation effort. Many 
goals formalized by other projects, programs, and agencies will also be 
met by the work performed under this project.
    The primary driver for this project is fulfillment of objectives 
and goals laid out directly in a letter from the USFWS to the Yurok 
Tribe related to condor recovery, and the Condor MOU. In the letter, 
USFWS states, ``It is likely that the establishment of a self-
sustaining population of condors in the Pacific Northwest would 
substantively contribute to their recovery.'' They list activities 
which must be completed prior to release, including many YTWP has 
already put substantial time into, such as: garnering State Wildlife 
Agency support, coordination with California Condor Recovery Program 
partners, addressing threats (especially lead), and evaluation of 
habitat potential.
    Activities to be carried out in this project will meet four of the 
Department of the Interior (DOI) departmental goals and three primary 
USFWS mission goals. Yurok condor reintroduction targets a species 
protected under the ESA and the Migratory Bird Treaty Act (MBTA) (USFWS 
Goal 1.1), an imperiled species of international concern (USFWS Goals 
1.2 and 1.5). MBTA priorities include birds that ``1.) have high 
conservation need, 3.) act as a potential unifier for partnerships, and 
4.) have a high likelihood that factors affecting status can be 
realistically addressed,'' are applicable to this work. Meeting these 
goals also Provides Natural and Cultural Resource Protection and 
Experiences (DOI Mission Goal 1) by working to recover an endangered 
species; itself a cultural resource. It provides a recreational 
opportunity via reintroducing a much sought wildlife viewing 
opportunity (DOI Mission Goal 2). Condors are well known as a valuable 
umbrella species. The large spatial requirements for their life 
activities often require conservation of large extents of habitat 
(USFWS Goal 2.3). USFWS Goal 4.1 related to partnerships in natural 
resources with Indian Tribal Governments is clearly met by this project 
as well as DOI Mission Goal 3 (Advance Government to Government 
Relationships with Indian Nations--Meet our trust. responsibilities to 
American Indians). This project provides a scientific framework for 
deciding the potential for condor recovery in the target area (DOI 
Mission Goal 4.2--Provide Science for Sustainable Resource Use, 
Protection and Adaptive Management) (DOI Mission Goal 4.4--Develop a 
comprehensive science framework for Understanding the Earth).
    Several goals detailed in the Spotlight Species Action Plan 2010-
2014 for California condor will be met by this project, or have been 
met by past ERE projects, including three ``Measures,'' two ``Field 
Restoration Activities,'' and three ``Outreach and Education Efforts.'' 
These Measures, Field Restoration Activities and Outreach and Education 
Efforts relate to increasing reproduction rates at breeding facilities, 
increasing the wild population, increasing wild breeding attempts, 
preparing new release sites based on information garnered from existing 
sites, implementing new strategies to minimize contaminant related 
mortalities, and distributing information regarding condors and condor 
management to interested parties, including federal, state, and private 
land managers.
    The most recent USFWS goals met by this proposed work relate to the 
USFWS draft California Condor (#Gymnogyps californianus!) 5-Year 
Review: Summary and Evaluation. This review includes the goals put 
forth in the Spotlight Species Action Plan 2010-2014; the fulfillment 
of the goals discussed previously will also fulfill the goals of the 5-
Year Review.
    The final USFWS condor related goal met by this work relates to the 
California condor Recovery Plan Action Status, for which ERE projects 
have contributed to 14 identified priorities related to developing 
release protocols; selecting for, preparing, and implementing release 
sites; distributing educational material; and providing information to 
both public and private land managers; and furthermore expanding these 
activities throughout the Pacific northwest.
    Not only does USFWS achieve working relationships in this capacity 
with the Tribe, but also with private conservation groups, zoos, state 
agencies, and other federal agencies. Successful regional 
reintroduction will help meet the USFWS criteria for recovery of the 
species by creating a thriving, disjunct population, as described in 
the California Condor Recovery Plan, so that the species can be down 
listed to threatened, and eventually delisted.
    Participation of RNP in this project as co-managers with the Tribe 
furthers the Department of the Interior and Yurok Klamath River Basin 
Co-management Agreement signed in spring of 2006. It calls for the 
Tribe and the Agency to co-manage resources, including endangered 
species. Participation by the Park fulfills their primary mission as 
stated in the Condor MOU, ``. . . shall promote and regulate the use of 
the Federal areas . . . which purpose is to conserve the scenery and 
the natural and historic objects and the wild life therein and to 
provide for the enjoyment of the same in such manner and by such means 
as will leave them unimpaired for the enjoyment of future 
generations.'' The Yurok Lands Act includes a provision confirming the 
2006 MOU to ensure this meaningful partnership between the Tribe and 
DOI continues into the future.
    The California Condor Blue Ribbon Panel report indicated that new 
release sites should not be considered until lead ammunition exposure 
issues for condors is addressed (Walters et al. 2008). Lead ammunition 
has now been banned and full implementation is expected this year, far 
out enough that condors newly released into an unknown region are 
unlikely to expand across the landscape quickly enough to encounter it 
frequently prior to the ban taking effect. With this in mind, the 
report recommends that, ``. . . once this issue (lead) is resolved, 
additional release sites should be considered.''
    Participation in this project also fulfills mission goals of other 
partners, including Ventana Wildlife Society, Los Angeles Zoo, Oakland 
Zoo, Oregon Zoo, and the Sequoia Park Zoo. Continued participation by 
the Tribe in the California Condor Recovery Program fulfills a main 
objective of the Endangered Species Act. Participation in groups such 
as this allows for the unification of current scientific methodologies 
with traditional ecological knowledge through the relationship formed 
between tribes and the USFWS. Participation by tribes is directly 
addressed in Secretarial Order #3206 of the Endangered Species Act, 
Appendix, Section 3. ``The Services shall coordinate with affected 
Indian tribes in order to fulfill the Services' trust responsibilities 
and encourage meaningful tribal participation in the following programs 
under the Act, and shall: (E)(1) Solicit and utilize the expertise of 
affected Indian tribes by having tribal representation, as appropriate, 
on Recovery Teams when the species occurs on Indian lands (including 
tribally-owned fee lands), affects tribal trust resources, or affects 
the exercise of tribal rights'' (DOI 1997).
Integration with Yurok Tribal Goals
    Reintroduction of condor in northern California, will meet several 
Constitution goals of the Yurok Tribe, a sovereign nation. Restoration 
of the Tribe's cultural landscape, including natural resources, and 
more specifically culturally significant species, promotes, maintains, 
and enhances the lifeway of the Yurok People and specifically fulfills 
both objectives four and six of the Yurok Constitution.
    Another primary Yurok Constitutional goal is reacquiring the 
Tribe's aboriginal territory, a slow process. While the Yurok 
Reservation is the second largest in California, over 90 percent of 
reservation land is held in fee, with only a little over 5,000 acres 
held in trust, and most of our aboriginal territory falls outside the 
reservation boundaries. Recently, the Tribe reacquired over 60,000 
acres of land on the east side of the reservation and is working to 
purchase more land within the reservation. As land is purchased, the 
Tribe develops lands management plans that incorporate the land and 
habitat restoration activities. The Yurok Lands Act plays a critical 
role in the ability of the Tribe to be successful in that it would 
extend the Yurok Reservation to include recently acquired lands, assist 
with jurisdictional issues on the reservation, authorize cooperative 
agreements with RNP and US Forest Service, and confirm the 2006 
cooperative agreement with the Department of Interior. Each component 
of the legislation is critical to empowering the Yurok Tribe and local 
federal land managers with the authorization and jurisdiction needed to 
take action to further these land management goals, and importantly, 
the condor program.
Experience in Applying
    YTWP began the application process about one month previous to the 
due date, having spent the previous month refining the desired goal and 
objectives, and acquiring Technical Assistance which was readily 
available for reviewing the project. The application process for the 
ERE grant is typically one of the more technically difficult of tribal 
funding sources, in YTWP's opinion due to an unwieldy RFP, which is 
described more fully below in Suggestions for the ERE Process. The most 
recent submission upload process through Grants.gov was one of the 
smoothest in the history of YTWP applications to the ERE. Past 
iterations using Grants.gov have been riddled with upload issues and 
errors in the RFP providing misguidance on how to appropriately load 
attachments, which were clarified in this round. The versatility of 
data inputs was appreciated, as YTWP could either directly input a lot 
of the information requested, for example with the SF-424A, or upload 
in a variety of formats.
    YTWP's experience with revisions requested by ANA was similarly 
smooth, but, as is often the case, too short of notice. Typically, YTWP 
has received less than one work week to respond to requests for 
revisions to applications. Time is always tight in a grant funded 
program, as project deadlines are always on the horizon. Having such a 
short turnaround time often means one or more staff has to abandon all 
other projects to respond. Ultimately it results in a clarified project 
that better fits the needs of ANA and the Tribe, but often puts 
significant stress on the applicant.
Suggestions for the ERE Process
    Fundamentally, the ERE funding opportunity has proven to be 
essential to the Yurok Tribe condor reintroduction efforts. It is, 
however, a rigorous application process, and a somewhat daunting one. 
On the one hand, the rigor of the application process is a benefit. The 
ANA grant opportunity, ERE included, is designed to ensure the 
applicant has considered all aspects of successful project 
implementation, including accurate identification of the problem to be 
addressed and an effective solution. Concrete objectives and actions to 
take must be developed to affect that solution. Sufficient capacity 
must be available or acquired to implement actions. Community and 
partnership support is also required to increase likelihood of success, 
and long-term benefits that will continue to positively impact the 
community over time. All sections are complementary, and the process is 
educational. One of the lead project development staff for YTWP swears 
that she has learned more about project design and management from ANA 
than from all other grant projects combined.
Challenges in the ERE Application Process
    The RFP is long and convoluted. The multiple and complementary 
layers described above can be hard to interpret, and can result in a 
behemoth of an application as the applicant writes more and more to try 
and clarify apparently redundant requests for information. YTWP has not 
written an ERE application that was less than 140 pages, inclusive of 
attachments. As a tool to understand exactly what was being asked for, 
YTWP had to go through page by page and copy and paste different 
directions for different parts of the application from multiple sources 
into a Word document to bring all the bits together. Once that was 
done, it was clearer what was requested, but there still seemed to be 
some redundancy between sections.
    Also, there is an abundance of technical terms used to define 
various components within the grant structure. Long-Term Community 
Goals, Current Community Conditions, Project Goal, Project Objectives, 
Outcomes, Indicators, Means of Measurements, Outputs, Targets, 
Milestones, and Populations are all terms that interact in complex 
ways. The organizing Word document mentioned earlier helped in fitting 
these various terms together into the complex roadmap we used to 
formulate our proposal. Even with the roadmap we used, there was much 
debate about the specifics of these terms within our writing team. 
Eventually we settled on agreed upon definitions and came together to 
write the proposal as a four-person team. This is quite a burden for a 
small Program such as ours. For a one or two-person program, as many 
tribes have a proposal of this complex a structure may prove to be too 
much a burden to undertake.
    Finally, there is a wealth of technical assistance provided. 
However, if one is not familiar with resources available, it can be 
quite difficult to find them and connect them to the RFP. Additionally, 
the support documentation designed to help describe what the 
application is looking for is written as if for a SEDS grant, with 
goals and objectives that do not necessarily fit well into an ERE 
proposal, making it difficult to ascertain what would be considered 
strong goals and objectives.
Suggestions for Making the ERE Application More Accessible
    Being 100 percent grant funded, YTWP could be considered 
experienced in grant writing, and yet, the ERE grant is still daunting. 
For younger tribal organizations, or for programs with a less 
experienced project lead, there are some ways that ERE grants could be 
made more accessible.

        1)  Provide funding to attend in-person grant development 
        trainings. ANA provides a wealth of online learning 
        opportunities, as well as excellent technical support through 
        telecommunications. However, in-person help with project 
        development can be impactful in a very different way, allowing 
        the potential grantee to engage more fully with their technical 
        aid and more fluidly converse. ANA does provide in-person 
        training, but as regions are so large, it can be a full day's 
        travel for some organizations to attend trainings. Speaking 
        from YTWP's experience, being 100 percent grant funded YTWP has 
        no funds to attend such trainings, and so never has. One 
        potential way to improve tribes' ability to successfully apply 
        would be to provide small travel grants to tribes wishing to 
        attain in-person training. Such trainings would allow for 
        program managers to learn about project planning, budgeting, 
        realistic personnel needs, how to locate match and leverage 
        funds, etc. These are lessons we learned through years of grant 
        writing and management and could essentially be considered as 
        capacity building grants as they would not only apply to ANA 
        opportunities, but overall grant and program management.

        2)  Conduct a ``Request for Proposal'' overhaul. Having been 
        applying for ERE grants for nearly a decade, YTWP staff can say 
        that they can see the ways that the program has evolved due to 
        changing federal priorities, program priorities, suggestions by 
        tribal applicants, changes in application processes, and for a 
        myriad of other reasons. This has all been done with good 
        intentions, but there are vestigial tags left over from past 
        iterations, and the RFP has become unwieldy. Not only is it 
        long, but, especially in this last round, requirements or 
        information about various application segments seemed scattered 
        across the RFP and an entirely separate application toolkit and 
        it became something of a hunt to find all the descriptions. 
        There are many helpful aids, but without prior understanding of 
        the system, a new applicant would not be able to easily find 
        them. One potential solution is to hire a tribal consultant who 
        has not been involved in the ANA application process to attempt 
        to write an actual ``proposal'' and identify the difficulties 
        or lack of clarity that they encounter. From that point, in 
        coordination with current technical assistance and ANA staff, 
        they could work to streamline and clarify the document. A panel 
        could be created of successful and unsuccessful applicants to 
        provide feedback on the process in a detailed and concrete way.

        3)  Develop and require viewing of an application and available 
        resource webinar. Since the application is largely electronic, 
        perhaps it would be possible to create an online process in 
        which applicants must sign-up for and run through the webinar, 
        accompanied by a streamlined, no more than 5-page guide on 
        where to find aids to the application and where to find 
        information on the various segments of the application 
        according to page number. This may prove redundant for 
        experienced applicants, but, then again, it may prove 
        beneficial even to them. A complete template of the expected 
        application proposal with full formatting would be extremely 
        helpful such that applicants can clearly see where they may be 
        missing pieces.

        4)  Create ERE specific examples. Nearly all examples given in 
        the supporting information are for community initiatives that 
        might better fit under SEDS opportunities. YTWP has often found 
        that project needs do not follow the same sort of structure as 
        the examples given, requiring ERE applicants to put 
        significantly more effort into trying to come up with metrics 
        with little relatable guidance.

        5)  Allow more time for applications to be completed. While ANA 
        is clear that community scoping should be done prior to writing 
        an application, many organizations like YTWP, which is usually 
        working on a deficit in time and money due to the great needs 
        of the Tribe, rarely have time to think about community input 
        before the application period comes. An additional month could 
        provide the opportunity to conduct more effectively targeted 
        community outreach to better inform project development. YTWP 
        has learned to conduct and collect community scoping whenever 
        possible at this point, to guide overall program directions. 
        But a tribal organization new to the process may not know how 
        to adequately prepare.

        6)  Develop a pre-proposal. As part of an extended application 
        process, a pre-proposal could be created to help focus 
        interested tribes' project goals. This pre-proposal should 
        contain a streamlined version of the full scope of the project, 
        and should be required to be kept small, for example, less than 
        10 pages. This could be used to separate applicants with 
        sufficient planning from those who need to conduct additional 
        preparation or scoping. The first group could continue on to a 
        funding request, and the second could be directed to the 
        technical assistance available to improve their project design 
        and be better prepared to apply successfully in the next round. 
        This would save an incredible amount of time and effort for 
        both applicants and reviewers. Further, we have never had an 
        ERE proposal accepted outright. There is always a need for 
        additional revisions prior to being given acceptance. Reviewers 
        could provide some direction up front as a result of what is 
        presented in the pre-proposal to help direct efforts in the 
        following lager proposal to aid applicants in honing their 
        asks. A pre-proposal may not be feasible given the timeframe of 
        Congressional allocations and the intense review process, but 
        would be helpful if it were possible to create.

    Overall, the ERE application process has been educational and 
informative, and has helped grow the capacity of the Yurok Tribe 
Wildlife Program to conduct and implement project design. If ANA is 
successful in engaging more tribes in the application process, and 
tribes become more capable of managing an ANA grant, it is our hope 
that ANA funding would be expanded.
Continuing Challenges for Yurok Condor Reintroduction
Need for Consistent and Continuing Funding for Natural Resource 
        Conservation
    Ultimately, the Yurok Tribe Condor Reintroduction Program will need 
additional support, and more consistent funding than competitive 
federal grants can currently provide. As proposed, the 10(j) 
experimental population will be run for 20 years before an assessment 
of success is made. YTWP estimates that the first year will require 
$600,000 in program support to be successfully implemented. Subsequent 
years are expected to require $400,000-$500,000 in program support, 
which will cover a foundational biologist base, interns, vehicles, new 
and replacement satellite and VHF radio transmitters, broadband support 
for data transmission in the remote backcountry, facilities maintenance 
and utilities, veterinary supplies as well as many other aspects of an 
active and growing program.
    The Yurok Tribe would like to engage with the United States Senate 
Committee on Indian Affairs regarding the potential to establish an 
annual support mechanism for projects like these through an Annual 
Funding Agreement. Such a support mechanism, time bound and result 
oriented, could act as a model for other tribal initiatives that have 
the potential to meet tribal, federal, and state environmental goals. 
Furthermore, we urge the Committee to continue their support of Indian 
Country environmental restoration, through Department of Interior 
Bureau of Indian Affairs (BIA) and non-BIA Annual funding agreements, 
as well as through tribally oriented competitive funding opportunities 
through the USFWS, U.S. Department of Agriculture, and the 
Environmental Protection Agency. In truth, there are too few 
opportunities to support tribal natural resource management and too 
often when engaging with contacts for other funding opportunities we 
are directed to tribe specific programs. Such federal programs can be 
counted on one hand, and the Yurok Tribe has three federally-listed 
species, two species likely to be federally-listed within the next 
year, five state-listed species, and multiple species that are critical 
culturally and/or for subsistence uses. This need far outweighs 
available funding opportunities for work which, by its nature, is not 
fiscally self-sustaining. Tribal lands have suffered when removed from 
the care of the tribes charged with stewarding them; but still they 
remain in large part some of the most pristine and ecologically 
resilient systems in existence due to tribal paradigms of managing for 
future generations in perpetuity.
NEPA Finalization
    The current NEPA process requires, under the Department of the 
Interior's own timeline, that a finding of no significant impact, or 
FONSI, be completed by the end of this June. To accomplish this, 
publication of the Environmental Assessment, inclusive of the 10(j) 
piece, must occur by April 1st to allow for adequate public comment. 
Recent turnover in the Secretary of the Interior's Office has made 
acquiring proper approvals for the 10(j) designation difficult to 
impossible. Any assistance that this committee might provide in 
acquiring the necessary approval from Interim Secretary Bernhardt by 
mid-March, would be greatly appreciated by the Tribe, our co-leads in 
the NEPA process, our public supporters, and the Yurok people.
Conclusion
    Thank you again for the opportunity to provide testimony to the 
Committee regarding the great benefits provided by the ERE funding 
opportunity to the Yurok Tribe Condor Recovery Program. I am 
particularly blessed to be part of a restoration project that means so 
much to my community, in terms of environmental, cultural, and social 
restoration. I am honored to represent my elders and our youth as we 
work to continue the Tribe's long history of sustainable landscape 
management. It has been particularly meaningful to me to share with the 
Committee today in front of my mother, also a Tribe member dedicated to 
tribal restoration as a Senior Fisheries Biologist for the Tribe, and 
my child, who will be the first generation of Yurok children to grow up 
with condors in their sky in over one hundred years.

    Literature of Import or Referenced Herein:

    Burnett, L.J., K.J. Sorenson, J. Brandt, E.A. Sandhaus, D. Ciani, 
M. Clark, C. David, J. Theule, S. Kasielke, and R.W. Risebrough. 2013. 
Eggshell Thinning and Depressed Hatching Success of California Condors 
Reintroduced to Central California. The Condor 115:477-491.

    Condor MOU. 2014. Memorandum of understanding between, The U.S. 
Fish and Wildlife Service, National Park Service, California Department 
of Parks and Recreation, Ventana Wildlife Society, and the Yurok Tribe 
on California condor conservation. Agreement date March 4th 2014. 
http://www.fws.gov/cno/es/CalCondor/PDF_files/Expansion-
FinalMOUwYurok.pdf.

    Condor MOU. 2017. Memorandum of understanding among, the U.S. Fish 
and Wildlife Service, National Park Service, Bureau of Land Management, 
U. S. Forest Service, Yurok Tribe, California Department of Fish and 
Wildlife, California Department of Parks and Recreation, Oregon 
Department of Fish and Wildlife, Oregon Zoo, Sequoia Park Zoo, Ventana 
Wildlife Society, Hells Canyon Preservation Council, Oakland Zoo, 
Pacific Gas and Electric Company, Pacific Power Company, Green Diamond 
Resource Company on California Condor Conservation. Agreement executed 
December 5th 2016.

    DOI, Department of the Interior. 1997. Secretarial Order 3206: 
American Indian Tribal Rights, Federal-Tribal Trust Responsibilities, 
and the Endangered Species Act (June 5, 1997).

    DOI, U.S. Department of the Interior. 2014. Strategic plan for 
fiscal years 2011-2016. http://www.doi.gov/bpp/upload/DOI_FY2011-
FY2016_StrategicPlan.pdf. Accessed 27 Aug 2014.

    Finkelstein, M.E., D.F. Doak, D. George, J. Burnett, J. Brandt, M. 
Church, J. Grantham, and D.R. Smith. 2012. Lead poisoning and the 
deceptive recovery of the critically endangered California condor. 
Proceedings of the National Academy of Sciences. U. S. A. 1-6. http://
dx.doi.org/10.1073/pnas.1203141109.

    Fry, D.M., and J. Maurer. 2003. Assessment of Lead Contamination 
Sources Exposing California Condors; Species Conservation and Recovery 
Report 2003-02. California Department of Fish and Game, Sacramento, CA.

    Kelly TR, B.A. Rideout, J. Grantham, J. Brandt, L.J. Burnett, K.J. 
Sorenson, et al. (2015) Two decades of cumulative impacts to 
survivorship of endangered California condors in California. Biological 
Conservation 191:391-399

    Mee, A. and L.S. Hall, Editors. 2007. California Condors in the 
21st Century. The Nuttall Ornithological Club, Cambridge, Massachusetts 
and The American Ornithological Union, Washington D.C. 279 pp.

    Rideout, B.A., I. Stalis, R. Papendick, A. Pessier, B. Puschner, 
M.E. Finkelstein, D.R. Smith, M. Johnson, M. Mace, R. Stroud, J. 
Brandt, J. Burnett, C. Parish, J. Petterson, C. Witte, C. Stringfield, 
K. Orr, J. Zuba, M. Wallace, and J. Grantham. 2012. Patterns of 
mortality in free-ranging California condors (Gymnogyps californianus). 
Journal of Wildlife Diseases 48:95-112.

    Snyder, NFR and H.A. Snyder. 2000. The California Condor: A Saga of 
Natural History and Conservation. Academic Press, London, UK. 410 pp.

    Snyder, NFR and H.A. Snyder. 2005. Introduction to the California 
Condor. University of California Press, Berkeley and Los Angeles, 
California. 271 pp.

    USFWS, U.S. Fish and Wildlife Service. 1996. California Condor 
Recovery Plan, Third Revision. Portland, Oregon. 62 pp.

    USFWS, U.S. Fish and Wildlife Service. 2005. Fish and Wildlife 
Service strategic plan. http://www.fws.gov/planning/
usfwstrategicplanv3.pdf. Accessed 27 Aug 2014

    USFWS, U.S. Fish and Wildlife Service. 2009. Spotlight species 
action plan: California Condor. Region 8 Office, Sacramento, CA. 11pp.

    USFWS, U.S. Fish and Wildlife Service. 2012a. Migratory bird 
program. Focal species strategy. http://www.fws.gov/migratorybirds/
CurrentBirdIssues/Management/FocalSpecies.html. Accessed 27 Aug 2014.

    USFWS, U.S. Fish and Wildlife Service. 2012b. California Condor 
(Gymnogyps californianus) 5 Year Review: Summary and Evaluation. 
California Condor Recovery Program Partners, Hopper Mountain National 
Wildlife Refuge Complex, and USFWS Region 8. August, 2012.

    USFWS, U.S. Fish and Wildlife Service. 2014a. Letter to partner 
organizations related to condor recovery in the Pacific Northwest. 
Received January 21, 2014.

    USFWS, U.S. Fish and Wildlife Service. 2014b. Attachment to letter 
to partner organizations related to condor recovery in the Pacific 
Northwest. Received January 21, 2014.

    Walters, J., S.R. Derrickson, D.M. Fry, S.M. Haig, J.M. Marzluff, 
and J.M. Wundrle, Jr. 2008. Status of the California condor and efforts 
to achieve its recovery. Report submitted to the American 
Ornithologists Union and Audubon California. 57 pp.

    Watson, R.T., M. Fuller, M. Pokras, and G. Hunt, Editors. 2008. 
Ingestion of Lead from Spent Ammunition: Implications for Wildlife and 
Humans. The Peregrine Fund, Boise, Idaho. 383 pp.

    West, C.J., J.D. Wolfe, A. Wiegardt, and T. Williams-Classen. 2017. 
Feasibility of California Condor recovery in northern California, USA: 
Contaminants in surrogate Turkey Vultures and Common Ravens. The Condor 
119:720-731.

    Yurok Tribe, 1993. Constitution of the Yurok Tribe. Ratified 
November 19, 1993. 22 pp.

    The Chairman. Thank you, Chairman. We will proceed with 
five-minute rounds of questioning. I would like to start with 
Ms. Hovland.
    Commissioner Hovland, according to the fiscal year 2015 
annual report to Congress on outcome of evaluations of 
Administration for Native American Programs, 67 percent of 
projects visited met or exceeded their effectiveness 
expectations. In addition, 79 percent had a positive or 
significant positive impact on the grantee's community.
    From projects on which the ANA cannot conduct a site visit 
or that cannot meet the effectiveness expectations, how are you 
refining your process to ensure that the grantees are making 
good progress? So, good stats, but for those that aren't in the 
good stat column, what do you do?
    Ms. Hovland. Thank you, Chairman, that is an excellent 
question. At ANA, we want to be part of the success that 
happens with our projects. We offer, at no cost, technical 
assistance throughout the life of the grant. We also have a 
project specialist who is assigned to each of the grants that 
we have, that grantees can reach at any time. Again, if we need 
to come in and offer technical assistance or training, we offer 
to do that.
    But the majority of our projects at least meet the minimum, 
if not exceed, the outcomes that they projected.
    The Chairman. How about, for example, economic development 
projects? Do you track jobs? What kinds of things do you track 
to get an assessment of the impact?
    Ms. Hovland. Thank you, Chairman. We do track jobs. I was 
able to report that we looked back on those five years and the 
fiscal years 2011 through 2015 and mention how many Natives 
were employed. We do have an evaluation team that can go 
through and pull data and get specifics. Yes, we can find that 
information.
    The Chairman. Okay. Are there improvements to the 
legislation to NAPA that you would like to see from Congress, 
or are there things that would help?
    Ms. Hovland. Thank you, Chairman. Yes, there are a few 
items that we have looked at that we think would be beneficial. 
One is, NAPA requires that whenever ANA makes any 
administrative or programmatic changes, even if it is minor, 
that we give public notice. In order to comply, we issue a 
notice of public comment through the Federal Register, which 
typically, as you know, is a three to four month process, and 
it delays our issuing of funding opportunities.
    I have heard, since I have been here, since June, that our 
applicants really want that 90-day window to be able to apply 
for the grants and have a good application put forth. When we 
have to issue the public comment, it delays the funding 
opportunities from being published, and then we typically have 
to narrow the window that we are able to keep the applications 
open to either 60 days, and sometimes down to 45 days.
    We do feel there already is a mechanism in place for tribes 
and Pacific Islanders to provide their comment whenever we make 
changes to our annual consultation.
    Also, NAPA requires, as the language is worded, us to 
provide the impact. At ANA, we fund grants with a definitive 
beginning and end. Typically they are three-year grants. We 
have no way to go back in and evaluate the impact, once the 
grant has ended.
    We are able to measure the outcomes throughout the process 
of the grant and at the end of the grant. We would like to see 
that change from impact to outcomes, which we are able to 
measure and we are measuring.
    Under NAPA, it asks for Native language grantees that want 
to give their resources that they develop with their grants, to 
ANA if they choose to, and they can store it and digitize and 
catalog it and make it available to the public if the grantee 
agrees to. We have been able to store that in-house. But now 
with several more grantees, we are getting to the point where 
we are going to need a partner.
    We would like to look at the possibility of partnering with 
NMAI, the National Museum for American Indians. I met with them 
to see if we could utilize their facility and store, digitize, 
and catalog the materials that we have. It would be more 
accessible to the tribes when they come to Washington, D.C. 
That is the other area that we have looked at that would be 
beneficial.
    The Chairman. Thank you.
    Councilman Socobasin, your part of the Country is famous 
for maple syrup. I was intrigued, when you were talking about 
that, I can see why it would be a tremendous business 
enterprise.
    How do you go about harvesting from the trees? You used to 
see in the movie or the cartoon where they would pound a nail 
in the tree and hang a bucket on it to get at the sap. I am 
sure it is more sophisticated now. How does that whole process 
work now? Just give us some sense of the scope of that 
business, like people employed and the revenue. Obviously, you 
are very famous for maple syrup.
    Mr. Socobasin. We have moved past the days of hanging a 
bucket from the tree.
    [Laughter.]
    The Chairman. Now, Tester does that in Montana, still, just 
so you know. He is a farmer, and that is how he does it.
    [Laughter.]
    Mr. Socobasin. We have a collection system now so that you 
don't have to go out and empty each bucket. There are lines 
that are hooked to each of the taps. This year, we will have 
about 15,000 taps. So that would be a lot of buckets to empty, 
and it would take a lot of time.
    With the equipment we have in place now, along with a 
vacuum, which creates constant pressure, so that you maximize 
the flow throughout the day, when the sun hits the trees, the 
sap starts to flow. As it sets, it slows down or stops. That 
goes into a collection system. We have two tanks, 10,000 
gallons each. From that point, it goes into a reverse osmosis 
machine.
    So when the sap comes out, it takes about 40 gallons of sap 
to make one gallon of syrup. When we put it through the reverse 
osmosis machine, that ratio is about eight to one. So the 
processing time was greatly decreased because of that. It goes 
into the evaporator at that point, and becomes syrup. We throw 
it into barrels, haul it into town to our bottling facility.
    But our project has created six jobs. That is the bottling 
side, and also in the field, directly. But it has also created 
opportunity within our forestry program. Because each of these 
areas that we tap have to be prepared. So our forestry 
department hires guys to come in and clear these areas, leaving 
nothing behind but usually white birch and maple trees. That 
typically could be eight to ten guys when the weather is, 
usually through the spring, summer, is when they are prepping 
our next areas that we tap.
    The Chairman. Can you tap a tree every year? Or does it 
have to rest?
    Mr. Socobasin. You can. So one of the things, we are 
organically certified. In order to have that, the tree has to 
be a certain size. Then you have to move down eight inches and 
over eight inches the following year. So you can tap the tree 
from year to year, you just have to constantly move your tap.
    The Chairman. Thank you.
    Vice Chairman Udall, I know you knew all that, but I 
thought it was kind of interesting.
    Senator Udall. [Presiding.] I thought it was fascinating, 
too. The success on these ANA grants is very impressive.
    Earlier this month, this Committee convened a listening 
session to hear more about Indian Country's priorities for 
Native language revitalization. A lot of folks mentioned the 
need to develop pathways for more teachers and community 
members to get involved.
    Governor Vallo, I understand that Acoma used part of its 
ANA grant to support a Kares language summer institute, which 
offered training opportunities for both teachers and community 
members. Why did Acoma feel it was important to offer 
opportunities to all community members, not just language 
teachers, when designing the institute?
    Mr. Vallo. Thank you for the question, Vice Chairman.
    The institute was designed to expand the opportunities for 
teaching and learning. This is all in alignment with this 
ongoing development of our language program. Initially, the 
intent was to train teachers who would work in the classroom 
setting within the community school and also the public school 
system.
    What we learned is that because there was such great 
interest by community members and families that the training 
would be extended to include our own community members. We see 
that today, that those individuals who are trained, using the 
same training programs and curriculum developed by our language 
retention program staff, that that information is now used in 
the home. It is used within family settings and extended family 
settings, while also being implemented in our local school 
systems.
    So the intent has expanded beyond the formal training which 
was identified in the very early years for teachers in the 
school systems only. So we are really grateful that there has 
been an expressed interest by the community to obtain this 
training. We see that there is a much greater impact than on 
who the beneficiaries are, which are our children and other 
tribal members. But also this interest by the community to be 
teachers and stewards of the language.
    Senator Udall. Great, thank you very much for that answer.
    Chairman James, you mentioned the reintroduction. Yes, sir.
    Mr. James. Mr. Vice Chairman, if I may. May I ask to be 
allowed to have Ms. Tiana Williams-Claussen, our Yurok lead 
wildlife biologist, accompany me at the table in case there are 
questions about the condor program that I may not be able to 
answer?
    Senator Udall. That would be great. Ask Tiana Williams-
Claussen to come forward. That young baby you hear cooing back 
there is her baby, Morgan, who traveled all the way across the 
Country from California and I understand made a very good trip. 
She has been very good here today.
    I am going to actually ask about the condor, so we are glad 
to have you both here. The reintroduction of the California 
condor is really a remarkable story of species recovery made 
possible by cooperation among Federal agencies, the State of 
California and an extensive network of non-profit organizations 
to share research, expertise and resources. The Tribe also 
deserves to be recognized for its efforts in developing tribal 
capacity to undertake projects of this magnitude, by hiring and 
training tribal members for key positions.
    I understand that your tribal biologist, who we have just 
introduced, is here. We appreciate your being here and the 
remarkable job you have done on this recovery of the condor.
    How has the Yurok Tribe leveraged the ANA grant to 
complement these condor recovery efforts? What resource void 
has the ANA grant filled that contributed to its success?
    Mr. James. Thank you, Vice Chair. The Yurok Tribe has 
utilized a number of grants that we do at the Tribe. Leveraging 
is what we do with the grants that we receive. But specifically 
regarding the ANA, and Ms. Claussen is the point of contact. So 
I would like to share the hard work that she has started on 
behalf of the Tribe back in 2010. She can highlight the 
importance of how hard she has worked with the Tribe leveraging 
these ANA grant funds.
    Senator Udall. That would be great. Tiana, please proceed.
    Ms. Williams-Claussen. Sure. Again, I am Tiana Williams-
Claussen. I am the lead biologist with the Yurok Tribe and a 
Yurok tribal member from the Village of Wehl-kewe. I am very 
happy to share my experience with you.
    The ANA opportunity fits into a rather complicated and 
large set of grants and funding opportunities from the tribal 
wildlife grants, Bureau of Indian Affairs, and other funding. 
We receive TSCA agreements from our local partner, Redwood 
National Park, to conduct some of the research that we need to 
do.
    But in particular for this ANA, which runs from 2019 to 
2021, we are receiving support from the local utility company, 
PG&E.
    Senator Udall. Pacific Gas and Electric.
    Ms. Williams-Claussen. I completely apologize there. We 
always say PG&E and then those acronyms get stuck in your head. 
They are actually providing for creating the release facility 
itself. Redwood National Park is providing a huge in-kind match 
by allowing us to use one of their buildings to create our 
operations center where all of our staff will be based. Our own 
TERO program, the Tribal Employee Rights Office, is providing 
staff training to Yurok members to renovate that building. So 
not only are we creating the new building, but we are also 
creating new capacity amongst our tribal members.
    Members of the California Condor Recovery Program are 
offering us trainings, like the U.S. Fish and Wildlife Service, 
Pinnacles National Park, L.A. Zoo. The Oregon Zoo, we just got 
back from a training in Portland, as well. All of this coming 
together, the Ventana Wildlife Society, to give us the capacity 
and training to be able to actually implement, hopefully within 
the next year, condor releases.
    Senator Udall. Thank you very much. It is really, as I 
said, a remarkable story of recovery.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Vice Chair Udall. I want to 
touch back on the maple syrup stuff for a second here. What is 
the name of your website?
    Mr. Socobasin. Passamaquoddymaple.com.
    Senator Tester. Do you ship to Montana?
    Mr. Socobasin. We do. We do, and if you order enough, there 
is no shipping cost.
    Senator Tester. No kidding?
    [Laughter.]
    Senator Tester. I like that. Free shipping on bulk orders. 
I like that.
    Commissioner Hovland, I want to thank you for being here 
today. There is no doubt that this has been an effective 
program for Indian Country, whether we are talking health care, 
language, once the money gets on the ground, you have been able 
to make a real difference in economic development.
    In talking to tribes, though, I find that this application 
process can be kind of difficult. My question is, have you had 
a chance to review the application process? Do you agree with 
that? And what can be done to simplify it?
    Ms. Hovland. Thank you, Senator. I have heard that through 
the years also. ANA is a fantastic office, but it does have a 
difficult application process. Prior to my arrival in June, 
early in 2018, ANA staff had looked at the application process 
and provided more tools to help it be a little more user-
friendly. On the funding opportunities, which by the way are 
open right now until April 15th, there are examples in there 
that are helpful as well as a framework.
    So that is one way of addressing the process. Also, staff, 
prior to my arrival, developed a pre-application online tool 
kit, which also includes the template and additional examples. 
To make it more user-friendly.
    I have asked, and formed an internal work group, to review 
the application line by line thoroughly, to see if there are 
things that we can do to streamline it, and make it more user-
friendly. I traveled to Minneapolis a few weeks ago to one of 
ANA's pre-application trainings and heard from many of the 
grant writers that came to that training. We are going to bring 
those comments back to our work group and continue to work to 
see if we can make it easier and streamline it.
    Senator Tester. I appreciate that. The goal is to increase 
economic opportunity out there. I don't think there is much 
argument here. The tribes that could use it the most are the 
tribes that are the poorest, and consequently the tribes that 
are the poorest probably don't have grant writers. And so I 
appreciate your taking a look at this to make sure that you 
make it as user-friendly as possible.
    Ms. Hovland. Absolutely.
    Senator Tester. Do you have at your fingertips what the 
budget was last year for this program?
    Ms. Hovland. Yes, Senator, it was $54.5 million, and that 
was a half a million dollar increase. We thank you and Congress 
for the increase.
    Senator Tester. We haven't got the President's budget yet, 
but I am sure you have been working on it. What are you going 
to ask for this year?
    Ms. Hovland. I am not able to comment on that until it is 
published.
    Senator Tester. Oh, come on, you can let us know. Slip it 
out, we won't tell anybody.
    [Laughter.]
    Senator Tester. Well, look, your program is a good program.
    Ms. Hovland. It is.
    Senator Tester. We like results. It appears you get 
results.
    Ms. Hovland. Absolutely.
    Senator Tester. I don't know if I can name another program 
in Indian Country that gets results, just to be honest with 
you.
    So I hope that you fight for what you need, okay?
    Ms. Hovland. Absolutely. Thank you.
    Senator Tester. I also understand that you are leading an 
effort on the Intra-Departmental Council for Native American 
Affairs at the Department of Health and Human Services, and 
intend to make that council more active. Is that fairly 
accurate?
    Ms. Hovland. Yes, Senator, absolutely.
    Senator Tester. Well, I applaud your efforts. Communication 
is key if we are going to tackle big issues. One of those big 
issues is missing and murdered indigenous women.
    Ms. Hovland. Yes.
    Senator Tester. The Committee held a hearing on it at the 
request of myself and other members here. It was an interesting 
hearing. It was one of those ones where you were smiling when 
you walked out of the room. It is a problem, and it is a 
problem that is a crisis. Is this something that you intend to 
have the council look at in the upcoming year?
    Ms. Hovland. Thank you, Senator, for your interest in this 
very important topic. The Intra-Departmental Council on Native 
American Affairs, or ICNAA, is the vehicle for us to look at 
murdered and missing indigenous. It is so important, like you 
said, that we are talking with one another within HHS and not 
in silos. I am sure what you have discovered through your 
listening sessions and conversations is that when we are 
dealing with murdered and missing indigenous women, we also 
need to look at human trafficking, the opioid and substance 
abuse epidemic and how they cross-tie. That is where ICNAA is 
very important. As we are addressing one issue, we are 
addressing all of them.
    Yes, it is something that we will be discussing.
    Senator Tester. Okay. So to be a little more clear, because 
it is an issue that I hear about a lot, it is an issue that we 
hear a lot about here too. And by the way, it is one of those 
issues we didn't--it was probably still there, we certainly 
didn't hear much about it five or ten years ago. But we are 
hearing about it now.
    So I gather from your question that you will be utilizing 
the Council to do something positive in that realm.
    Ms. Hovland. Yes, that is correct.
    Senator Tester. Do you see anything else that Health and 
Human Services could do when it comes to missing and murdered 
indigenous women, over and above that Council?
    Ms. Hovland. That is an excellent question. As you heard 
the example of today, just how flexible our funding is, 
especially under the social and economic development strategy 
grant, this is a project that our Native communities could put 
together to address, to develop codes, however they choose to 
address it.
    Really, it is a grant that could be written under a SEDS 
program.
    Senator Tester. Do you need anything from us when it comes 
to this realm, missing and murdered indigenous women?
    Ms. Hovland. I appreciate your bringing attention to this 
and having listening sessions. I would be happy to meet with 
you or your staff to talk about ways that we can address it.
    Senator Tester. I do think one of your fortes is 
communication. As I said earlier, my comment is communication 
can solve a lot of problems in government, with marriages, you 
name it. I just really think that we have a lot of work to do, 
and the more folks who can throw in their skill sets to help 
solve this problem, the better chance we have at solving it. 
Not only at the Federal level, not only your office, but also 
at the tribal council level, FBI, U.S. Marshal, tribal law 
enforcement, you name it.
    Thank you all for being here. I appreciate it very much. I 
look forward to having some Maine maple syrup on my pancakes.
    [Laughter.]
    Ms. Hovland. Thank you, Senator.
    Senator Udall. Thank you so much, Senator Tester.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. I also want to thank all 
of you for being here. I so appreciate the comments today.
    And I want to echo Senator Tester's comments with respect 
to missing and murdered indigenous women, and everything that 
we need to do to address this issue. So know it is a priority 
for me.
    But I also know, Commissioner Hovland, in your introduction 
today you also talked about combatting the crisis of human 
trafficking. So thank you. As you may know, last Congress, 
along with some of my colleagues here, I introduced the End 
Trafficking of Native Americans Act. We are going to 
reintroduce it again this Congress, to bring awareness and 
resources to combatting this horrific crime of human 
trafficking in Indian Country. I look forward to working with 
you with respect to that issue as well. Thank you.
    There is something else I want to jump back to on this idea 
of the grants that go out. It is an incredible program. I think 
it is fantastic. But we need to make sure that more Native 
Americans in Indian Country across the United States have 
access to these grants. My concern is just what I had heard 
earlier, sometimes it is challenging to even apply for these 
grants.
    I just came back from Nevada. We were at a statewide grants 
conference. Some of our Native American communities were there. 
This is the one thing I hear all the time. There are many 
territories and Native American communities actually missing 
out on this funding because they are challenged.
    So one of the things that I want to point out, because I so 
appreciate what you are doing, but I think more needs to be 
done. I think it was Chairman James in your comments, I think 
it was page 15, you literally talk about some of the concerns 
with ERE, the application process.
    The fact that your tribe is considered experienced in 
grant-writing and you have some ideas about how we can 
streamline it and this process, I would recommend, please take 
a look at that. I understand you provide technical assistance 
and training, but a lot of the tribes don't have access to 
that. They can't fly out for that. Unless you are bringing the 
training to them, they are not going to be able to access in-
person training. Sometimes that helps for the grant-writing 
process.
    I know there are other things that are recommended here. To 
the extent that we can streamline it, tear down those barriers, 
and give them access, that is what I am looking for. So if you 
can work with us, we are happy to work with you in how you guys 
are addressing that, that would be wonderful.
    Ms. Hovland. Thank you. Yes, you have my commitment on 
that.
    Senator Cortez Masto. Thank you. And there are imperious, 
first of all, let me just say your website is fantastic. I was 
just on the website, looking at all the grants. You are able to 
pull them up, you are seeing across the Country where the 
grants have been identified and who the recipients are. Is it 
right there, out of the--correct me if I am wrong--195 grant 
recipients are listed on your website. They have received the 
grants. And this is beginning in the year 2013 to the present, 
is that right? Or is it just year by year?
    Ms. Hovland. Thank you, Senator. are you asking about what 
is currently on our website?
    Senator Cortez Masto. Yes.
    Ms. Hovland. Some of them are three-year grants, some are 
five-year. So I would have to look back and get the exact 
information.
    Senator Cortez Masto. Here is my concern. If I read the 
website correctly, there is not one zero granting going into 
the State of Nevada. Not one Native American community in the 
State of Nevada has received a grant. I don't know if that is 
because they haven't applied or they were denied, or if it is 
difficult to apply for the grants.
    If you would work with my office, I would like to know what 
is going on. If anybody from Nevada has every applied, and if 
they have, were they denied? Why were they denied, or some of 
the challenges that are out there.
    I think one of the key things is making sure we are doing 
everything e can in Native communities across this Country to 
make them aware of these grants. What are you doing to make 
sure it gets out to the communities as the grants are 
available?
    Ms. Hovland. Thank you. Excellent questions. I appreciate 
that.
    First of all, at my request, I have asked our training and 
technical assistance centers, we have four, one in the east 
region, west region, Alaska and Hawaii. I asked them to 
identify, and they are in the process of doing this, all Native 
communities and tribes that have either never received an ANA 
grant or have not received one in several years, to reach out 
to them to identify why that is, and to start offering training 
in those areas.
    So it is in process. We did identify what you brought up 
was a barrier. There are not a lot of resources to travel. We 
are trying to get to those communities and we have offered some 
training. In Nevada, we received 50 applications since 2011, 
six of which were funded and the last grant ended in 2015. We 
had identified that Nevada was an area where we needed to 
really get out there, spread the word about ANA, and get more 
training out there.
    As a result, we held a project planning and development 
training in Reno in October.
    Senator Cortez Masto. Wonderful.
    Ms. Hovland. We recently held a preapplication training in 
Henderson. We are trying to identify those. I have asked that 
we identify those communities, and then we start reaching out 
and finding out what can we do better, so that you are applying 
for these, or if you have applied, what can we be doing better. 
It is a priority of mine.
    Senator Cortez Masto. Thank you. And as you go out, please 
don't hesitate to talk with our office. Because we can get word 
out as well. We can make sure that there is a good turnout, 
people know about it in the State of Nevada, our tribal 
communities, and they are able to come out as well and 
participate in the training.
    Ms. Hovland. That is fantastic, thank you.
    Senator Cortez Masto. Thank you.
    Senator Udall. Thank you, Senator Cortez Masto, very much 
for that questioning. And thank you for working with her. I 
think one of the issues we do find sometimes when we have pots 
of money is, tribes have a hard time accessing them. If you 
could let us know if there is a problem there, I mean, we can 
try to work through with whatever issues there are.
    Commissioner, in November of 2018, HHS collaborated with 12 
other Federal agencies to produce the Fourth National Climate 
Assessment. The report found that climate change increasingly 
threatens Americans' health and well-being, particularly 
vulnerable populations and many Native populations. The report 
specifically found, and now I am quoting from it, climate 
change increasingly threatens indigenous communities' 
livelihoods, economies, health and cultural identities by 
disrupting interconnected social, physical and ecological 
systems. That is the end of the quote there.
    In your position as commissioner and co-chair of HHS' 
Interagency Council on Native Affairs, you are in a unique 
position to address this issue. What is HHS doing to respond to 
the public health impacts of climate change?
    Ms. Hovland. Thank you, Senator. I will have to follow up 
with you on the specifics that HHS is doing. I did host and 
Admiral Wyocki vice-chaired our first ICNAA meeting on Friday. 
We are planning to have more meetings. It will be an item that 
I follow-up on.
    I can tell you, and as you know, under ANA we had the 
Environmental Regulatory Enhancement Act, which really is great 
for our tribes to be able to write grants, which can provide 
the resources to write their tribal code, so they can develop 
and enforce environmental codes in their communities.
    Senator Udall. Great. Thank you. On this particular area, 
it seems like convening an interagency council on Native 
affairs, meeting to discuss the public health impacts of 
climate change on tribes, might make a real impact. So I would 
suggest you look into that.
    Chairman James, I understand that the California condor 
plays a central role in the Yurok Tribe's traditional dances 
and practice of traditional Yurok religion. Can you explain how 
re-introducing the condor, and I am happy, too, to have Tiana 
weigh in on this, reintroducing the condor will improve the 
Tribe's efforts to maintain and revitalize traditional Yurok 
culture and Yurok language?
    Mr. James. Thank you, Vice Chair. Condor plays a huge role 
in our ceremonies and our way of life, for our jump dance and 
our Deer Skin Dance back at home. We have been using the condor 
since time immemorial in our ceremonies. So it is vital and 
critical as we continue to move forward. We are still going to 
do that.
    To answer your question, through prayer and through song, 
from my heart, from myself as a Yurok tribal chairman, as a 
traditional ceremonial leader, I would like to sing a brief 
tune of what it means to us to carry on that message. What it 
is for us, it is balance. We are balancing the world, and we 
are using that condor that flies high above us to pack that 
medicine to take it up to the Creator. So it is creating and 
exciting that we are here today and talking about a grand 
opportunity. We mentioned leveraging. You are actually 
leveraging it with our traditional way of life and our 
partners. It is impacting. So I would like to share a quick 
tune to let you know from my heart and my spirit and where I am 
from.
    [Singing in Native tongue.]
    Mr. James. So again, imagine our baskets, our prayers going 
up in ceremony, that condor flying high above, packing that 
medicine, taking it up to the Creator. So it is vital and 
critical, and I thank you. It is an honor for me to be here 
with my staff, and again, we look forward to working with you, 
not just on this project, but many more that impact not just 
Indian Country. I wanted to share the impact that you are 
providing to the Yurok Tribe in Northern California on the 
Klamath River. [Phrase in Native tongue.]
    Senator Udall. Thank you so much for that inspiring song. I 
noticed when you were doing that that Tiana's baby, Morgan, 
just really settled down. So that was very impressive. Very 
impressive.
    The Chairman. [Presiding] I did, too.
    Senator Udall. Mr. Chairman, you did, too.
    Let me ask Governor Vallo and Council Member Socobasin, 
have your tribes seen similar complementary benefits from 
language revitalization and economic development efforts as a 
result of the ANA and what you have heard here today?
    Mr. Vallo. Thank you, Vice Chairman Udall. Yes, most 
definitely. We are very happy to say that the language 
revitalization initiative at Acoma has really rooted itself in 
Acoma, in very significant ways. So it not only has impacted 
and generated interest by community members and engaged them in 
an active revitalization initiative, but it has initiated a 
conversation. And it has initiated a very critical thought 
process internally about our inherent responsibility around 
language and culture, and preserving that language and culture.
    This conversation involves all generations. So we are 
realizing without any real effort that this discussion around 
language and cultural preservation is inter-generational. 
Everyone is taking ownership over this issue. When you consider 
Acoma being in its place for over 1,000 years, we are singing 
the same songs. When we have that opportunity to celebrate our 
culture through our own Native tongue, that says a lot for the 
resilience of our communities, but also this passion that we 
have to fulfill that inherent responsibility.
    I think that we have a much stronger understanding of that 
in this time. So the intergenerational engagement is happening, 
and it must be sustained if we are to continue to be successful 
at language revitalization moving forward. So yes, definite 
benefits. We have one Acoma woman who is now a Ph.D. who has 
dedicated her career and her scholarship to the study of 
indigenous languages, and is the scholar on the Keres language 
in New Mexico. So to that end, we also see a prayer realized, 
when our elders have always offered prayers on our behalf that 
we would embrace the western language and culture and use it to 
benefit our responsibility, or the fulfillment of our cultural 
responsibilities.
    Senator Udall. Thank you. Council Member Socobasin?
    Mr. Socobasin. We came here prepared to talk about maple 
syrup, but we do have a language grant as well. And actually, 
my time as chief was when that was first awarded.
    In our communities, as I mentioned earlier, we have 3,600 
tribal members. Of those, about 5 percent are fluent in our 
language. We are one of the tribes of first contact, so we are 
one of the few tribes in the east that still has our language. 
Part of that being I think we are so far north and it is so 
cold that all we have is us.
    But a big influence on the Wasaba language was the Catholic 
church. I was one of the first generations that, my first 
language was English. My wife, who is the same age as I, her 
first language was Passamaquoddy. And our story is very similar 
to what has been already said today. Our culture is connected 
and our language is very important to our ceremonies.
    Because of the ANA grant, we have been able to implement an 
immersion class into our schools, in the pre-school and 
kindergarten. Our goal is, we have a school on the reservation 
that goes up to the eighth grade. I hope within the next ten 
years that all their lessons are taught in Passamaquoddy.
    Senator Udall. Thank you very much, and thank you for your 
courtesies, Mr. Chairman. I think we covered some good ground 
today and we have realized the real benefits of this grant 
program. I appreciate very much the hard work of Jeannie 
Hovland.
    The Chairman. Absolutely. Thank you, Vice Chairman.
    Thanks again to all the witnesses. If there are no more 
questions for today, members can also submit follow-up 
questions for the record. The hearing record will be open for 
two weeks.
    Again, thanks to all of our witnesses for being here, and 
Commissioner Hovland, for your good work. We appreciate it so 
much. Thanks to all of you. We are adjourned.
    [Whereupon, at 3:48 p.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Kamana`opono M. Crabbe, Ph.D, Ka Pouhana/CEO, 
                       Office of Hawaiian Affairs
    Aloha e Honorable Chairman John Hoeven, Vice Chairman Tom Udall, 
and members of the Senate Committee on Indian Affairs:
    Mahalo for the opportunity to submit testimony regarding the 
Committee's February 27, 2019 Oversight Hearing on the ``45th 
Anniversary of the Native American Programs Act and the establishment 
of the Administration for Native Americans.'' The Office of Hawaiian 
Affairs (OHA) is a public trust and independent state agency 
established through the Hawai'i State Constitution to improve the lives 
of the indigenous people of Hawai`i (Native Hawaiians). OHA's enabling 
statute charges it to advocate on behalf of Native Hawaiians, and to 
assess policies and practices as they may affect Native Hawaiians. OHA 
is also named in various federal statutes as a recognized Native 
Hawaiian organization with standing to be consulted with on matters 
pertaining to Native Hawaiian rights and cultural resources. With that 
kuleana (responsibility) in mind, our agency is pleased to submit 
testimony for the record and urge Congress to act in reauthorizing the 
Administration for Native Americans (ANA) and the Native American 
Programs Act of 1974 (NAPA).
    Forty-five years ago, Congress established a network of federal 
assistance programs under the Secretary of Health and Human Services 
(HHS) ``to promote the goal of economic and social self-sufficiency for 
American Indians, Hawaiian Natives and Alaskan Natives'' \1\ through 
passage of NAPA. \2\ In the mid-1970s, a pivotal time in the Native 
Hawaiian cultural renaissance movement in Hawai`i, our community was 
just finding our voice and reclaiming our traditions after generations 
of suppressing our cultural identity. It was timely that Congress 
passed NAPA--dedicated to supporting the self-determination and 
economic development for Natives Americans across the United States, 
including American Indians, Alaska Natives, and Native Hawaiians. NAPA 
opened access to much needed funds, technical assistance, and in-
service training for a broad range of public and private projects, as 
well as research, demonstration, and pilot programs.
---------------------------------------------------------------------------
    \1\ Headstart, Economic Opportunity, and Community Partnership Act 
of 1974, Pub. L. No. 93-644  11, 88 Stat. 2324 (1975).
    \2\ NAPA was signed into law as Section 11 of the Headstart, 
Economic Opportunity, and Community Partnership Act of 1974, Pub. L. 
No. 93-644 (1/4/75), and enacted as Title VIII of the Economic 
Opportunity Act of 1964, Pub. L. No. 88-452 (8/20/64).
---------------------------------------------------------------------------
    Since the initial passage of NAPA, Congress has periodically 
revisited the act to broaden and strengthen its provisions and to 
reinforce its mission. In 1987, Congress passed the Older Americans Act 
Amendments of 1987, \3\ which reauthorized NAPA and established several 
new programs to aid in promoting self-determination, including the 
Native Hawaiian Revolving Loan Fund (NHRLF), which OHA helps to 
administer and oversee today. In 1992, Congress established ANA through 
the Older Americans Act Amendments of 1992, \4\ to carry out the 
important programs under NAPA and to advise the HHS Secretary on all 
matters affecting Native Americans that involve HHS. Also in 1992, 
Congress enacted the Native American Languages Act of 1992, \5\ which 
provided funds specifically to ensure the survival and continuing 
vitality of Native American Languages. And in 1997, Congress passed the 
Native American Programs Acts Amendments of 1998, \6\ which 
reauthorized NAPA through 2002. Unfortunately, this was the last time 
that NAPA was reauthorized.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 100-175 (11/30/87).
    \4\ Pub. L. No. 102-375 (9/30/92).
    \5\ Pub. L. No. 102-524 (10/26/92).
    \6\ Pub. L. No. 105-361 (11/10/98).
---------------------------------------------------------------------------
    Through the last four and a half decades, various Native Hawaiian 
groups have used NAPA grants to bolster our community's language 
proficiency, health care, agriculture, economic opportunities, and 
youth leadership. Grants created through NAPA have become a critical 
source of funding for Native Hawaiian organizations seeking to expand 
their impacts with new pilots and demonstration projects. In Fiscal 
Year 2017 alone, thirteen different Native Hawaiian projects received 
just under $3.9 million dollars in grants from ANA. \7\ Some of these 
groups initially began their work with smaller grants from OHA before 
continuing on to develop larger scale projects through ANA. Projects 
like `Aha Kane, a program promoting Native Hawaiian health through 
reinvigorating ancient and traditional cultural practices, were able to 
grow and further develop their capacity to make a difference in our 
communities through not only the funding provided by ANA, but also the 
technical assistance of ANA and its contracted program managers.
---------------------------------------------------------------------------
    \7\ See ADMIN. FOR NATIVE AM., CURRENT GRANTEES (2017), https://
www.acf.hhs.gov/ana/current-grantees [https://web.archive.org/web/
20180129142724/https://www.acf.hhs.gov/ana/current-grantees].
---------------------------------------------------------------------------
    ANA and OHA have fostered a strong working relationship related to 
the coordinated administration of NHRLF and other Native Hawaiian 
programs that have received both ANA and OHA grants. Further, ANA and 
OHA have begun to discuss the possibilities of further collaborating to 
support Native Hawaiian organizations through mentorships and 
coordinating grant program criteria to make both of our grant programs 
more effective in supporting Native Hawaiian organizations with their 
work. These opportunities look promising and we look forward to 
continuing to work with ANA Commissioner Hovland. During her short time 
as ANA Commissioner, she has demonstrated her strong support for 
empowering Native Hawaiians and we are encouraged by our shared vision 
for developing self-determination in the Native Hawaiian community.
    In light of the long and positive history that ANA has served in 
our community and the 45th anniversary of NAPA's initial passage, 
NAPA's reauthorization is long overdue. OHA strongly urges this 
Committee to offer legislation to reauthorize NAPA so that ANA can 
continue its work without this added uncertainty.
    OHA once again thanks the Committee for holding this oversight 
hearing on ANA and NAPA. This important topic needs to be addressed for 
the betterment of American Indian, Alaska Native, and Native Hawaiian 
communities. I look forward to continuing to work with you on these 
issues and others affecting our Native people.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Jeannie Hovland
    Question 1. Please provide the Committee with an overview of all 
actions HHS is taking to address the public health impacts of climate 
change, specifically, the particular threats climate change poses to 
Indigenous Peoples.
    Answer. The U.S. Department of Health and Human Services (HHS) 
supports a broad portfolio of research and initiatives related to 
environmental health. Within the Administration for Children and 
Families (ACF), the Administration for Native Americans' (ANA) 
Environmental Regulatory Enhancement (ERE) grants provide resources for 
tribes and native communities to develop legal, technical, and 
organizational capacities for protecting their natural environments. 
Prospective applicants have the flexibility to tailor their grant 
applications based on the environmental needs of their community, 
consistent with the parameters of the funding opportunity announcement.

    Question 2. Please provide us with an update on the status of the 
Council's discussions (to raise the finding of the National Climate 
Assessment with the Intradepartmental Council on Native American 
Affairs).
    Answer. The next meeting of the Intradepartmental Council on Native 
American Affairs will take place in late May. The Committee's request 
to discuss the National Climate Assessment will be addressed at that 
time.

    Question 3. Please provide the Committee with an update on HHS' 
involvement in the draft White House Executive Order establishing a 
Presidential Committee on Climate Security.
    Answer. Neither ACF nor ANA have been involved in any negotiations 
about a prospective Executive Order concerning climate security issues.

    Question 4. Given the dire warning signs of climate change impacts 
on these communities, are these communities eligible to receive ERE 
grants for climate change adaption measures such as the development of 
climate change action plans?
    Answer. ANA ERE grants are used by tribes to develop a variety of 
resource management plans. Action plans with respect to climate change 
could fit within the scope of these types of projects. The ERE program 
is designed to support projects that plan, develop, and implement 
initiatives that improve the capability of an Indian tribe to regulate 
environmental quality pursuant to federal and tribal laws. The ERE 
program enhances the ability of tribal governments to provide effective 
stewardship over the land, water, and air that encompass their native 
communities.
    The ERE program supports the principle that projects must follow 
tribal cultural preservation and natural resource management priorities 
in order to achieve environmentally healthy and sustainable AI/AN 
communities. ANA is therefore interested in supporting projects that 
are locally designed and strengthen environmental regulatory programs 
in a manner consistent with the goals of American Indian and Alaska-
Native communities.

    Question 5. The Yurok Tribe encountered several difficulties in 
applying for the ERE grant to implement their California Condor 
Reintroduction Program. Specifically the Tribe (1) found that the 
``request for proposal'' (FRP) is unwieldy; (2) felt ANA gave them too 
short of a notice to make needed revision to their application; and (3) 
notices the ANA's applications included an abundance of technical terms 
that took a four person team hours to decipher. Is ANA addressing these 
challenges so that more Tribes are able to successfully navigate the 
grant application process?
    Answer. ANA understands that the application process can be 
challenging and we are making improvements. In particular, we have 
received feedback that the evaluation components included in our 
Funding Opportunity Announcements (FOAs) can be difficult for new 
applicants to understand. ANA strives to find an appropriate balance 
between requesting sufficient information to demonstrate thorough 
planning and implementation readiness with the need for a fair and 
diverse competition.
    ANA rolled out a project framework in Fiscal Year (FY) 2018, within 
the FOA's expected outcomes section, focusing on long-term community 
goals that are achievable and can produce measurable project outcomes. 
ANA's project framework incorporates long-term community goals, current 
community conditions, project goals, objectives, indicators, outcomes, 
and outputs. These components convert long-term community goals into 
specific project goals, define targets for project achievement, and 
provide structure to measure project outcomes. The ANA project 
framework is designed to demonstrate the logical relationship between 
all concepts.
    Program offices within ACF use a Paperwork Reduction Act-approved, 
standardized template for FOAs that includes required government-wide 
data elements. This standardization helps ensure transparency, 
consistency, and reduces the burden on prospective applicants and 
grantees. Grants are awarded to eligible entities who demonstrate the 
capacity to implement them effectively. Conversely, it may limit the 
ability of a particular program to tailor a FOA to the capacities of 
specific potential applicants.
    ANA worked with the ACF Office of Planning and Research Evaluation 
to update our terminology for performance evaluation of funded 
projects. As a result, the terminology used in our FY 2018 FOAs was 
more standardized and better aligned with our ACF partner offices. 
Moreover, each FOA includes an appendix of definitions for project 
framework and other terminology used in the FOA. Most of the terms are 
also HHS standardized interpretations based on 45 CFR Part 75, HHS's 
implementation of the OMB Uniform Guidance at 2 CFR 200.
    In addition, with respect to achieving long-term goals for ANA-
funded communities, we decided to move from a deficit needs-based 
approach to a strengths-based approach. While this shift created some 
challenges for applicants, it produced stronger project proposals. 
However, ANA recognized a need to provide assistance and guidance based 
on the new FOA and subsequently updated our training and technical 
assistance (TTA) to include in-person workshops and online manuals. The 
manuals and workshop registrations are available on ANA's website and 
numerous announcements were sent out about these resources through 
ANA's listserv from the Office of the Commissioner and from our four 
regional TTA centers.
    In FY 2018, ANA reduced the application period to 60 days to ensure 
that our language awards were made one month earlier than in the past. 
This year, ANA allows a 90-day application period.
    The ``timeframe for revisions'' referred to by the Yurok tribe is 
part of ANA's negotiation period. Once an application is scored and is 
undergoing funding consideration, there may be additional information 
required before finalizing an award. During these negotiations, ANA 
contacts the applicants that have scored the highest and allows them 
the opportunity to revise specific elements of their application. The 
turnaround for this information is typically three days. Often the 
shortened timeframe is necessary to put funding in place prior to the 
end of the fiscal year. However, this is something ANA will look at 
internally to determine if the timeframe can be lengthened.
    ANA is committed to continuous improvement of our FOAs based on 
feedback from tribes and lessons learned from the previous funding 
opportunity cycle. As our FOAs become more standardized and familiar, 
the process and terms should become easier for applicants to 
understand.

    Question 6. Your written testimony states ANA received 266 
applications in FY2018 but only awarded 63 new grant awards in the 
Administration's six project areas. Please provide a breakdown of the 
number of applicants and new awards made for each of the six project 
areas.
    Answer. See table below.

    Question 6a. Please provide an estimate of the number of qualified 
applicants for each project area that ANA was not able to award grants 
to due to funding limitations.
    Answer. Below is a table of the applications received in 2018 and 
awards made by ANA.

----------------------------------------------------------------------------------------------------------------
                                                             Social
                                                            Economic              SEDS     Environmental
                Language--Esther  Language--Preservation  Development   SEDS-    Native      Regulatory    2018
                    Martinez           & Maintenance       Strategies  Alaska     Youth     Enhancement    TOTAL
                                                             (SEDS)            Initiative
----------------------------------------------------------------------------------------------------------------
Number of                16                   68                 99         6        61            16        266
 Applications
 Received
Number of                15                   60                 80         5        55            16        231
 Applications
 Reviewed
Number of New             8                   10                 27         3        11             4         63
 Awards
Number of                12                   41                 53         4        34            14        158
 Qualified
 Applications
 scoring 70
 percent and
 above (z
 score, if
 available)
----------------------------------------------------------------------------------------------------------------

Secondary Benefits
    Question 7. ANA provides grants to three main program areas: Social 
and Economic Strategies, Native Languages, and Environmental Regulatory 
Enhancement. Tribes and organizations may receive an ANA grant for a 
project in one program area, which they use to accomplish goals in 
other program areas as well. Based on your review of ANA grantees, do 
many Tribes see multiple benefits from their NAPA projects?
    Answer. Yes. ANA most recently conducted a data review based on 
outcome evaluations conducted through site visits between 2011 and 
2015. The analysis of this data clearly shows that projects returned 
multiple benefits. For example, with the Social and Economic 
Development Strategies (SEDS) grants, an analysis of 128 projects 
primarily for social development, governance, and health family 
projects found that of 213 objectives, 71 addressed multiple themes 
with the greatest crossover being culture and education. Projects with 
educational objectives were also linked with environment objectives. 
Likewise, cultural objectives were linked with job training, 
agriculture, and education. For more information, please review the 
attached document: QuaNative on SEDS Social Projects 2011-2015.
    During beneficiary interviews with participants of ANA's language 
projects, evaluators asked respondents about the benefits experienced 
as a result of the project. As you can see from the ANA's QuaNative for 
Language Projects 2011-2015, there were a number of self-identified 
social benefits experienced as a result of the language projects. 
Community members identified more language in the community as a 
benefit, but they also identified cultural visibility and community 
connectedness as additional social benefits. Not only did families 
experience the expected cultural transference, they also noted 
intergenerational bonding, family and community bonding, and healing 
from historical trauma as a result of the language project.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
